CORRECTED
APPENDIX

APPENDIX A:

Opinion, No. 19-1311, U.S. Court
of Appeals for the Third Circuit,
July 22,2020................................ la

APPENDIX B:

Opinion, No. 16-651, U.S.
District Court for the District of
New Jersey, Dec. 7,2018........... 21a

APPENDIX C:

Decision of U.S. Citizenship and
Immigration Services regarding
Form 1-485 for Jose Santos
Sanchez, Feb. 8,2017.................. 39a

APPENDIX D:

Decision of U.S. Citizenship and
Immigration Services regarding
Form 1-485 for Sonia Gonzalez,
Feb. 8, 2017................................. 49a

APPENDIX E:

8 U.S.C. § 1101(a)(13)(A), (15)....52a

APPENDIX F:

8 U.S.C. § 1184(a)(1)

71a

APPENDIX G:

8 U.S.C. § 1254a.

72a

APPENDIX H:

8 U.S.C. § 1255,

87a

APPENDIX I:

8 U.S.C. § 1258,

102a

la
APPENDIX A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-1311
JOSE SANTOS SANCHEZ; SONIA GONZALEZ
v.
SECRETARY UNITED STATES DEPARTMENT OF
HOMELAND SECURITY; DIRECTOR UNITED
STATES CITIZENSHIP AND IMMIGRATION
SERVICES; DIRECTOR UNITED STATES
CITIZENSHIP AND IMMIGRATION SERVICES
NEBRASKA SERVICE CENTER; DISTRICT
DIRECTOR UNITED STATES CITIZENSHIP AND
IMMIGRATION SERVICES NEWARK,
Appellants
On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. l-16-cv-00651)
District Judge: Honorable Robert B. Kugler
Argued January 15,2020
Before: HARDIMAN, PORTER, and PHIPPS, Circuit
Judges.

2a
(Filed: July 22, 2020)
Craig Carpenito, United States Attorney
Christopher Amore
Office of United States Attorney
970 Broad Street, Rm 700
Newark, NJ 07102
Michael J. Glover [Argued]
Scott G. Stewart
United States Department of Justice
Civil Division
950 Pennsylvania Avenue, N.W.
Washington, DC 20530
Attorneys for Appellants
Jaime W. Aparisi [Argued]
Aparisi Law
8630 Fenton Street, Suite 925
Silver Spring, MD 20910
Michael J. DeBenedictis
Debenedictis & Debenedictis
20 Brace Road, Suite 350
Cherry Hill, NJ 08034
Attorneys for Appellees
Mary A. Kenney [Argued]
National Immigration Litigation Alliance
10 Griggs Terrace
Brookline, MA 02446

3a
Kristin A. Macleod-Ball
American Immigration Council
1318 Beacon St., Suite 18
Brookline, MA 02446
Attorneys for Amicus Appellee

OPINION OF THE COURT
HARDIMAN, Circuit Judge.
This appeal presents a question of statutory
interpretation involving adjacent subsections of the
Immigration and Nationality Act (INA), 8 U.S.C. § 1101
et seqDoes the conferral of Temporary Protected Status
(TPS) under § 1254a constitute an “admission” into the
United States under § 1255? We hold it does not.
I
Jose Sanchez and Sonia Gonzalez (Plaintiffs or
Appellees) are husband and wife and citizens of El
Salvador. They entered the United States without
inspection or admission in 1997 and again in 1998.
Following a series of earthquakes in El Salvador in 2001,
Plaintiffs applied for and received TPS. Over the next
several years, the Attorney General1 periodically

1 Although §§ 1254a and 1255 reference the Attorney General’s
authority and discretion in managing the TPS program, this authority
now belongs to the Secretary of the Department of Homeland
Security. See Meija Rodriguez v. U.S. Dep’t of Homeland Sec., 562
F.3d 1137, 1140 n.3 (11th Cir. 2009) (citing 8 U.S.C. § 1103(a) & 8

4a
extended TPS eligibility for El Salvadoran nationals,
which enabled Plaintiffs to remain in the United States.
In 2014, Plaintiffs applied to become lawful permanent
residents under § 1255. The United States Citizenship
and Immigration Services (USCIS) denied their
applications, explaining that Sanchez was “statutorily
ineligible” for adjustment of status because he had not
been admitted into the United States. And USCIS denied
Gonzalez’s application because it depended on the success
of Sanchez’s application.
Plaintiffs challenged that decision in the United States
District Court for the District of New Jersey, arguing
Sanchez was “admitted” into the United States when he
received TPS. Sanchez v. Johnson, 2018 WL 6427894, at
*4 (D.N.J. 2018). The District Court granted Plaintiffs
summary judgment, holding a grant of TPS meets
§ 1255(a)’s requirement that an alien must be “inspected
and admitted or paroled” to be eligible for adjustment of
status. Id. at *5-6. The Court reasoned that being
considered in “lawful status” is “wholly consistent with
being considered as though Plaintiffs had been ‘inspected
and admitted’ under § 1255.” Id. at *4. The Government
filed this timely appeal.2
C.F.R. § 244.2).
2 The District Court had jurisdiction under 28 U.S.C. § 1331. We
have jurisdiction under 28 U.S.C. § 1291. We review the summary
judgment de novo, applying the same standard as the District Court.
Fraternal Order of Police Lodge 1 v. City of Camden, 842 F.3d 231,
238 (3d Cir. 2016). Summary judgment is appropriate only if “there
is no genuine dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” Fed. R. Civ. P. 56(a). There is no
genuine dispute over any material fact, so we review only the District
Court’s legal interpretation of §§ 1254a and 1255.

5a
II
TPS shields foreign nationals present in the United
States from removal during armed conflict,
environmental disasters, or other extraordinary
conditions in their homelands. 8 U.S.C. § 1254a(b)(l).
Once TPS is granted, “the alien shall be considered as
being in, and maintaining, lawful status as a
nonimmigrant” for adjustment-of-status purposes under
§ 1255. 8 U.S.C. § 1254a(f)(4) (emphasis added).
Section 1255(a) permits certain aliens present in the
United States (including some who received TPS) to
adjust their status. It provides:
The status of an alien who was inspected
and admitted or paroled into the United
States ... may be adjusted by the Attorney
General, in his discretion and under such
regulations as he may prescribe, to that of
an alien lawfully admitted for permanent
residence.
8 U.S.C. § 1255(a) (emphasis added). The INA defines
“admission” and “admitted” as “the lawful entry of the
alien into the United States after inspection and
authorization by an immigration officer.” 8 U.S.C.
§ 1101(a)(13)(A).
As relevant here, an applicant is ineligible for
adjustment of status under § 1255 if he “has failed (other
than through no fault of his own or for technical reasons)
to maintain continuously a lawful status since entry into
the United States.” 8 U.S.C. § 1255(c)(2). An applicant
may nevertheless seek adjustment of status despite that
bar if “the alien, on the date of filing an application for

6a
adjustment of status, is present in the United States
pursuant to a lawful admission.” 8 U.S.C. § 1255(k)(l)
(emphasis added).
Ill
Appellees claim they are eligible for adjustment of
status because they were admitted when they received
TPS. We disagree because their interpretation of
§§ 1254a and 1255 is inconsistent with the text, context,
structure, and purpose of those sections.
A
The text of §§ 1254a and 1255 supports our
determination that a grant of TPS does not constitute an
admission.
The Government argues the District Court erred when
it held that “being in, and maintaining, lawful status as a
nonimmigrant” includes being “inspected and admitted or
paroled” as required by § 1255(a). According to the
Government, “lawful status” does not qualify as an
“admission” because the concepts are distinct. Appellees
agree that these terms have distinct meanings, so they do
not argue that “being in any lawful status is equivalent to
an admission.” Sanchez Br. 8. Instead, they insist “that
the process of obtaining TPS constitutes an admission,
akin to an alien who is considered admitted after an
adjustment of status.” Id. (citing In re Espinosa-Guillot,
25 I. & N. Dec. 653, 654 (BIA 2011) (“An adjustment of
status generally constitutes an admission.”)). Appellees
contend “[a]n individual’s original entry is irrelevant
because the subsequent grant of TPS ... provides the
‘lawful entry’ referred to in § 1101(a)(13).” Id. at 15. And

7a
they emphasize that obtaining nonimmigrant status
requires the admission of the alien, so the government
admits TPS recipients by treating them as being in lawful
nonimmigrant status under § 1254a(f)(4).
The Government’s position is more consistent with the
text of §§ 1254a and 1255. The INA defines “admission”
and “admitted” as “the lawful entry of the alien into the
United States after inspection and authorization by an
immigration officer.” 8 U.S.C. § 1101(a)(13)(A). We have
interpreted “admission” in § 1255(b) in accordance with
that statutory definition. Hanif v. Att’y Gen., 694 F.3d
479, 485 (3d Cir. 2012). And although “lawful status” is
not defined in the INA, we have drawn a clear line
between “admission” and “status,” saying “[t]he date of
gaining a new status is not the same as the date of the
physical event of entering the country.” Id.; see also
Taveras v. Att’y Gen., 731 F.3d 281, 290 (3d Cir. 2013)
(“The words ‘entry’ and ‘into’ plainly indicate that
‘admission’ involves physical entrance into the country,
which is inapposite to adjustment of status in removal
proceedings, a procedure that is structured to take place
entirely within the United States.”). Nothing in §§ 1254a
or 1255 suggests we should interpret these terms
differently now.3
3 The Fifth Circuit also has recognized the distinction between
admission and status:
Admission and status are fundamentally distinct
concepts. Admission is an occurrence, defined in
wholly factual and procedural terms: An individual
who presents himself at an immigration checkpoint,
undergoes a procedurally regular inspection, and is
given permission to enter has been admitted,
regardless of whether he had any underlying legal

8a
Appellees principally argue that “[b]y the very nature of
obtaining lawful nonimmigrant status, the alien goes
through inspection and is deemed admitted.” Sanchez Br.
8 (quoting Ramirez v. Brown, 852 F.3d 954, 960 (9th Cir.
2017) (internal quotation marks omitted)). This assertion
is unpersuasive for at least three reasons.
First, the text of § 1254a does not mention that a grant
of TPS is (or should be considered) an inspection and
admission. Second, a grant of TPS cannot be an
“admission” because § 1254a requires an alien to be
present in the United States to be eligible for TPS.
Consistent with that fact, we have recognized that TPS is
not “a program of entry for an alien.” De Leon-Ochoa v.
Att’y Gen., 622 F.3d 341, 353-54 (3d Cir. 2010). Third,
although Appellees are correct that admission often
accompanies a grant of lawful status, it does not follow
that a grant of lawful status is an admission. For example,
“a grant of asylum places the individual in valid
immigration status but is not an ‘admission.’” In re
H-G-G-, 27 I. & N. Dec. 617, 635 (AAO 2019) (citing In re
V-X-, 26 I. & N. Dec. 147 (BIA 2013)). “And a grant of
benefits under the Family Unity Program confers a
‘status’ for immigration purposes, but does not constitute
an ‘admission.’” Id. (quoting In re Fajardo Espinoza, 26
I. & N. Dec. 603, 605 (BIA 2015)).4
right to do so. Status, by contrast, usually describes
the type of permission to be present in the United
States that an individual has.
Gomez v. Lynch, 831 F.3d 652,658 (5th Cir. 2016) (citations omitted).
4 Although we owe no deference to the agency’s interpretation of
these statutes, the Immigration and Naturalization Service (INS)
General Counsel issued an opinion just one year after Congress

9a
B
The statutory context and structure also support our
holding that a grant of TPS does not constitute an
admission.
Congress created an exception to the admission
requirement for some aliens but did not do so for TPS
recipients. Instead, it said that an alien with TPS “shall
be considered as being in, and maintaining, lawful status
as a nonimmigrant.” 8 U.S.C. § 1254a(f)(4). It did not say
the alien would also be considered “inspected and
admitted or paroled,” which is the first requirement for
adjustment of status under § 1255(a). But Congress did
provide an exception to the “inspected and admitted or
paroled” requirement for “special immigrants” described
by § 1101(a)(27)(J) and aliens eligible for a visa. See 8
U.S.C. § 1255(h), (i). Unlike special immigrants and aliens
eligible for a visa, TPS recipients were not excepted from
the admission requirement because “where Congress
includes particular language in one section of a statute but
omits it in another section of the same Act, it is generally
presumed that Congress acts intentionally and purposely
in the disparate inclusion or exclusion.” I.N.S. v. Cardozaenacted the TPS statute endorsing the Government’s view.
Temporary Protected Status and Eligibility for Adjustment ofStatus
under Section [1255], INS Gen. Counsel Op. No. 91-27, 1991 WL
1185138 (Mar. 4,1991) (1991 Opinion), incorporated at 7 USCIS Policy
Manual B.2(A)(5), https://www.uscis.gov/policymanual (advising that
a grant of TPS should not be construed as an admission into the
United States). And when the INS promulgated regulations later that
year, it declined to adopt a proposal that would have allowed TPS
recipients to adjust their status no matter how they entered the
United States. See In re H-G-G-, 27 I. & N. at 621. These agency
actions suggest § 1254a(f)(4) was not understood to supersede
§ 1255(a)’s admission requirement.

10a
Fonseca, 480 U.S. 421, 432 (1987) (internal citation and
quotation marks omitted).
The interpretation Appellees propose also risks
rendering part of § 1254a superfluous. Section 1254a(h)
enables Congress to pass special legislation adjusting the
status of aliens receiving TPS only by a supermajority of
the Senate. 8 U.S.C. § 1254a(h)(2). Reading § 1254a(f)(4)
to place aliens effectively in lawful status and to satisfy
§ 1255’s threshold requirement would pave a clear path to
status adjustment for TPS recipients in derogation of
§ 1254a(h)(2)’s supermajority requirement. We doubt
Congress intended that. See Hibbs v. Winn, 542 U.S. 88,
101 (2004) (“A statute should be construed so that effect is
given to all its provisions, so that no part will be
inoperative or superfluous, void or insignificant.”)
(internal quotation marks and citation omitted).
Other subsections in § 1255 refer to admission and
lawful status as distinct concepts, further highlighting the
independent significance of both. For example, § 1255(k)
says an alien is eligible for adjustment of status if
“subsequent to such lawful admission [the alien] has
not... failed to maintain, continuously, a lawful statm.” 8
U.S.C. § 1255(k)(2)(A) (emphasis added).
And
§ 1255(m)(l) provides: “The Secretary of Homeland
Security may adjust the status of an alien admitted into
the United States (or otherwise provided nonimmigrant
status).” 8 U.S.C. § 1255(m)(l) (emphasis added).
Beyond the textual differences between the sections,
the structure of § 1255 also supports our opinion that
§§ 1254a(f)(4) and 1255(a) refer to different requirements.
If being considered in lawful nonimmigrant status was the
same as being inspected and admitted or paroled, there
would be no need for § 1255 to list inspection and

11a
admission or parole as a threshold requirement in
§ 1255(a) and failure to maintain lawful status as a bar to
eligibility for adjustment of status in § 1255(c)(2). Under
Appellees’ theory, anyone who is considered in lawful
status would be able to satisfy § 1255(a)’s admission
requirement, thus rendering the two provisions
superfluous.
C
Finally, Appellees’ interpretation would undermine the
purpose of the TPS statute. As we have held, “[b]y the
terms of the statute, the TPS program was designed to
shield aliens already in the country from removal when a
natural disaster or similar occurrence has rendered
removal unsafe.” De Leon-Ochoa, 622 F.3d at 353. As its
name suggests, this protection is meant to be temporary.
Treating a grant of TPS as an admission would open the
door to more permanent status adjustments that
Congress did not intend.
IV
The District Court did not read the INA in the manner
we just described. Instead, it cited Flores v. USCIS, 718
F.3d 548 (6th Cir. 2013), and Ramirez v. Brown, 852 F.3d
954 (9th Cir. 2017), to support its conclusion that a grant
of TPS constitutes an admission. We respectfully
disagree with those opinions.
A
The petitioner in Flores, Saady Suazo, entered the
United States without inspection or admission in 1998.
718 F.3d at 550. The Attorney General granted Suazo

12a
TPS in 1999 and he remained in the United States for the
next fifteen years. Id. at 549-50. After marrying an
American citizen, Suazo sought adjustment of status
through an “Immediate Relative Petition.” Id. at 550. The
USCIS denied his petition because he entered the United
States without inspection.
Id.
Suazo was also
unsuccessful in the district court, which held the plain
language of § 1255 “precludes a TPS beneficiary who was
not initially ‘inspected and admitted or paroled’ into the
United States ... from adjusting his status.” Id. at 55051.
On appeal, Suazo argued the plain language of § 1255
“shows that Congress’s clear intent was that a TPS
beneficiary is afforded with a pathway to [Lawful
Permanent Resident] status.” Id. at 552. Although he
conceded that an alien must be “admitted” to be eligible
for adjustment of status, Suazo argued “TPS beneficiaries
are afforded with an exception under the TPS statute
which operates as an inadmissibility waiver.” Id. The
Sixth Circuit agreed, holding the text of §§ 1254a and 1255
suggests TPS functions as an inspection and admission for
aliens who entered the country illegally. Id. at 551-54.
In so holding, the Sixth Circuit purported to follow the
plain language of §§ 1254a and 1255. Id. at 553. It
reasoned that to have lawful status as a nonimmigrant
under § 1255, an alien must also be considered admitted.
Id. It took § 1254a(f)(4)’s statement about status and
applied it to all of § 1255, including the admission
requirement. Id. The court also considered “the statutory
scheme as a whole.” Id. It noted that although the
Attorney General has discretion to waive certain grounds
of inadmissibility for groups of aliens, § 1254a also
explicitly limits the Attorney General’s discretion as to

13a
particular groups. Id. TPS recipients are not included in
the groups of aliens prohibited from discretionary relief,
so the court reasoned that “Congress did not intend to
strip the Attorney General of discretion to waive
admissibility requirements for all TPS beneficiaries.” Id.
at 554. Moreover, the court took TPS recipients’ absence
from a list of “[cjlasses of aliens ineligible for visas or
admission” as further proof that they are eligible for
adjustment of status, regardless of whether they were
admitted when they entered the United States. Id.
(quoting 8 U.S.C. § 1182) (alteration in original).
The Flores court also relied on “Congress’s apparent
intent” to conclude that, because “a TPS beneficiary is a
member of a class of people that Congress chose to
protect,” courts should read § 1254a(f)(4) as satisfying
§ 1255’s admission requirement. Id. And finally, the court
considered policy considerations, saying “[the petitioner]
seems to be the exact type of person that Congress would
have in mind to allow adjustment of status,” id. at 555, and
it was “disturbed by the Government’s incessant and
injudicious opposition in cases like this,” id. at 556.
We disagree with the Sixth Circuit’s interpretation for
three reasons.
First, the court concluded § 1254a(f)(4) should be read
as satisfying all of § 1255’s requirements.' Id. at 553. But
that conflates “lawful status” with “admission.” Even if
§ 1254a applies to all of § 1255, it does not follow that
considering an alien to be in lawful status means he or she
was admitted into the United States. As we explained
, already, status and admission are distinct—an alien can
possess lawful status without ever having been admitted.

14a
Second, we find the court’s analysis of the “statutory
scheme as a whole” and Congressional intent
unpersuasive. TPS recipients’ exclusion from a list of
aliens ineligible for discretionary relief has no bearing on
whether they are excused from § 1255’s admission
requirement. Moreover, the very nature of TPS—a
program of temporary protection— undermines the Sixth
Circuit’s conclusion that Congress intended to waive
§ 1255’s admissibility requirement so TPS recipients could
readily become permanent residents.
Third, although the court claimed to be guided by the
text of §§ 1254a and 1255, it betrayed its policy-driven
approach at the outset of its opinion, stating:
This case illustrates the archaic and
convoluted state of our current immigration
system.
While many suggest that
immigrants should simply “get in line” and
pursue a legal pathway to citizenship, for
Saady Suazo and other similarly situated
Temporary Protected Status beneficiaries,
the Government proposes that there is
simply no line available for them to join.
Id. at 549.
We express no opinion about the merits of this
broadside against how the other branches of the federal
government have handled immigration policy. If it’s true
that our nation’s immigration system is “archaic” or
“convoluted,” such criticism is no substitute for a careful
evaluation of the statute’s text, context, and history. The
court ended its opinion by saying it was “disturbed” by the
Government’s position in the case and it considered
Suazo—whom the court called a “contributing member of

15a
society”—“the exact type of person” that Congress would
have wanted to be eligible for adjustment of status. Id. at
555-56. But a petitioner’s personal characteristics,
however commendable they may be, are irrelevant to
whether he or she has satisfied § 1255’s requirements. See
28 U.S.C. § 453 (requiring federal judges to “administer
justice without respect to persons”).
B
The Ninth Circuit’s decision in Ramirez is similarly
unpersuasive. As in Flores, the Ramirez court considered
whether a TPS recipient who entered the United States
without inspection or admission was eligible for
adjustment of status by virtue of marrying an American
citizen. 852 F.3d at 957. The Ninth Circuit agreed with
the Sixth Circuit that an alien who is considered in lawful
status under § 1254a(f)(4) should also be considered to
have been admitted under § 1255(a). Id. at 959. To
support this conclusion, the court cited several sections of
the immigration code in which Congress discussed
“admission” and “nonimmigrant” status together and held
that “by the very nature of obtaining lawful nonimmigrant
status, the alien goes through inspection and is deemed
‘admitted.’” Id. at 960.
The court also emphasized similarities in the rigor of
the admission and TPS application processes and
concluded that an alien who receives TPS has also been
admitted. Id. And although the court acknowledged its
interpretation of §§ 1254a and 1255 does not align with the
statutory definition of “admitted,” it cited Ninth Circuit
caselaw allowing it to “‘embrace[] an alternative
construction of the term’ when the statutory context so
dictates.” Id. at 961 (quoting Negrete- Ramirez v. Holder,

16a
741 F.3d 1047,1052 (9th Cir. 2014)).
The Ramirez court then turned to the structure of the
statutory scheme to support its interpretation. First, it
concluded that the title of § 1255—“Adjustment of status
of nonimmigrant to that of person admitted for permanent
residence”—shows that Congress intended TPS
recipients to be able to “make use of § 1255.” Id. It then
discussed § 1254a(f)(4)’s applicability to § 1258(a), which
provides that “[t]he Secretary of Homeland Security
may... authorize a change from any nonimmigrant
classification to any other nonimmigrant classification in
the case of any alien lawfully admitted to the United
States as a nonimmigrant who is continuing to maintain
that status.” Id. (alterations in original). The court
concluded that § 1254a(f)(4) satisfies § 1255’s admission
requirement because it “equates ‘being in... lawful status
as a nonimmigrant’ with § 1258(a)’s ‘lawfully admitted ...
as a nonimmigrant.’” Id. at 961-62 (alterations in
original). It also opined that an alternative interpretation
would limit § 1254a(f)(4)’s applicability to § 1255(c)(2) and
“yield an anomalous result” by not benefitting immediate
relatives of American citizens. Id. at 962.
Finally, the Ninth Circuit held its interpretation of
§§ 1254a and 1255 is consistent with the purpose of TPS.
Id. at 963. It explained: “Because TPS confers an actual
status on and provides a slew of benefits to an alien who
satisfies rigorous eligibility requirements, it is different
than other forms of temporary reprieve we ordinarily
would not consider sufficient for ‘admission.’” Id. And it
reasoned that forcing TPS recipients to leave the United
States, return to their homelands, then reenter with
inspection and admission or parole, would undermine

17a
TPS’s purpose of protecting aliens from unsafe conditions
in those countries. Id. at 964.
We disagree with the Ninth Circuit’s decision in
Ramirez largely for the reasons we disagree with the
Sixth Circuit’s decision in Flores.
First, the court failed to acknowledge the meaningful
differences between “status” and “admission” that we
previously explained. And § 1254a(f)(4) is clear—aliens
with TPS are granted only lawful status, they are not
“admitted.” Moreover, the court overlooked distinctions
between a conferral of TPS and an admission. For
example, an alien at a port of entry may be subject to a full
range of inadmissibility grounds that an applicant for TPS
is not. Compare 8 U.S.C. § 1182(a) with 8 U.S.C.
§ 1254a(c)(2).
Second, the Ninth Circuit brushed off the statutory
definition of “admission” because its own caselaw allowed
it to “embraceG an alternative construction of the term
when the statutory context so dictates.” Ramirez, 852
F.3d at 961 (internal citation and quotation marks
omitted). Our caselaw does not permit such a move. See
Hanif, 694 F.3d at 485. Instead, we are bound to follow
Congress’s definition in § 1101(a)(13)(A), which defines
admission as the physical event of entering the country.
Taveras, 731 F.3d at 290.
Third, the Ninth Circuit’s discussion of the structure of
the immigration code is unpersuasive. The court said the
title of § 1255 suggests Congress intended TPS recipients
to be able to “make use” of its process for adjusting status.
Ramirez, 852 F.3d at 961. Fair enough. But § 1255 also
establishes that adjustment of status is available only for
TPS recipients lawfully admitted into the United States.

18a
The Ninth Circuit also reasoned that limiting § 1255
eligibility to TPS recipients lawfully admitted when they
entered the United States would “yield an anomalous
result” by not benefitting relatives of American citizens.
Id. at 962. This rationale ignores the fact that TPS
recipients who marry American citizens will be eligible for
adjustment of status so long as they were inspected and
admitted or paroled when they entered the United States.
So our interpretation does not bar eligibility for TPS
recipients who entered the country legally.5
Fourth, the court compared § 1254a to other sections of
the immigration code and concluded that § 1254a(f)(4)
“equates ‘being in . . . lawful status as a nonimmigrant’
with § 1258(a)’s ‘lawfully admitted . .
as a
nonimmigrant.’” Id. at 961-62 (alterations in original).
But that analysis again failed to recognize the difference
between “status” and “admission.” Section 1258(a) applies
to “any alien lawfully admitted to the United States as a
nonimmigrant who is continuing to maintain that status.”
(emphasis added). Nothing in § 1258(a) suggests that we
should collapse the admission and status elements into a
single requirement. Instead, § 1254a(f)(4) applies to
§ 1258(a) (just like § 1255) to excuse only a lapse in lawful
status following a lawful admission.
Finally, the Ninth Circuit’s discussion of the purpose of
TPS is contradictory. The court correctly noted that TPS
“provides a limited, temporary form of relief.” Id. at 963
6 Nonimmigrants inspected and admitted or paroled when they
entered the United States are eligible for TPS. See, e.g., Saliba v.
Att’y Gen., 828 F.3d 182, 186 (3d Cir. 2016) (nonimmigrant who
lawfully entered the United States on a student visa applied for, and
received, TPS); Mejia Rodriguez, 562 F.3d at 1140 (same for
nonimmigrant with B-2 visa).

19a
(emphasis added). But then it interpreted § 1254a(f)(4)
broadly to satisfy § 1255’s admission requirement. Id.
Absent a clear statutory directive, a program that
provides “limited, temporary” relief should not be read to
facilitate permanent residence for aliens who entered the
country illegally.
The court reasoned further that forcing TPS recipients
who entered illegally to leave the country and reenter
lawfully before seeking adjustment of status would
undermine the purpose of TPS. Id. at 964. According to
the Ninth Circuit, this process would be particularly
troubling for TPS recipients because their home countries
are unsafe. Id. But that ignores the fact that TPS
recipients may remain in the United States—without
seeking adjustment of status—as long as the Secretary of
Homeland Security extends TPS for their homelands.
Although they may be unable to adjust their status during
that time (if they entered the country illegally), they are
free to remain in the United States with lawful
nonimmigrant status.
For these reasons, we respectfully disagree with the
Sixth and Ninth Circuits’ interpretations of the statute.
We hold that Congress did not intend a grant of TPS to
serve as an admission for those who entered the United
States illegally.6
6 Our interpretation of §§ 1254a and 1255 is closely aligned with the
Eleventh Circuit’s opinion in Serrano v. Att’y Gen., 655 F.3d 1260
(11th Cir. 2011) (per curiam). There, the petitioner argued he was
exempt from § 1255(a)’s admission requirement because he had been
granted TPS. 655 F.3d at 1265. Although that argument is slightly
different than the argument raised in this appeal (and in Flores and
Ramirez), the court said: “That an alien with Temporary Protected
Status has ‘lawful status as a nonimmigrant’ for purposes of adjusting

20a
V7
We cannot square the District Court’s opinion with the
text, context, structure, and purpose of §§ 1254a and 1255.
For the foregoing reasons, we hold that a grant of TPS
does not constitute an “admission” into the United States
under § 1255. We will reverse.

his status does not change § 1255(a)’s threshold requirement that he
is eligible for adjustment of status only if he was initially inspected
and admitted or paroled.” Id. That holding, like ours today, respects
the distinction between status and admission and is faithful to the text
of§§ 1254a and 1255.
7 Sanchez and Gonzalez also argue they are eligible for adjustment
of status under § 1255(k). That section provides an exception for
aliens seeking to adjust status for employment purposes if, inter alia,
the alien “on the date of filing an application for adjustment of status,
is present in the United States pursuant to a lawful admission.”
Because Sanchez and Gonzalez were never admitted, they are
ineligible for adjustment under § 1255(k).

21a
APPENDIX B
NOT FOR PUBLICATION
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW JERSEY
CAMDEN VICINAGE
JOSE SANTOS SANCHEZ,
et al.

)
)

)
Plaintiffs,

)
)

)
v.
JEH JOHNSON, et al.,

Defendants.

No. 16-651 (RBK)

OPINION

)
)
)
)
)
)
)

KUGLER, United States District Judge:
THIS MATTER comes before the Court on Defendants’
Motion to Dismiss and Motion for Summary Judgment
(Doc. No 27) and Plaintiffs’ Motion for Summary
Judgment (Doc. No 28). For the reasons articulated in
this Opinion, the Court GRANTS Plaintiffs’ Motion for
Summary Judgment and GRANTS Defendants’ Motion
to Dismiss Plaintiffs’ claims for Mandamus relief and Due
Process violations (Count II). This Court relatedly
DENIES Defendants’ Motion for Summary Judgment.

22a
I.

BACKGROUND

This case involves the interpretation of two provisions
within the Immigration and Nationality Act: 8 U.S.C.
1254(a)(f)(4) and 8 U.S.C. 1255(a). The first statute
classifies an alien with Temporary Protected Status as
having “lawful status.” The second statute requires an
alien seeking to adjust status to have been “inspected and
admitted.”
The central issue is whether Section
1254(a)(f)(4)’s grant of Temporary Protected Status and
having “lawful status” satisfies Section 1255(a)’s
threshold requirement of being “inspected and admitted.”
This Court, consistent with courts in the Sixth, Ninth, and
Third Circuits, holds that it does.
❖

The parties in this case do not dispute the factual
record.
Jose Santos Sanchez and Sonia Gonzalez
(“Plaintiffs”) are husband and wife and citizens of El
Salvador. Pis. St. of Mat’l Fact (“SMOF”) [Doc. No. 29-1]
IT. They entered the United States without inspection in
1997 and 1998. Id. H 3. They subsequently sought two
changes to their immigrant status:
Temporary
Permanent Status in 2001 and Registered Permanent
Residence in 2014.
With El Salvador experiencing a series of earthquakes
in 2001, Plaintiffs submitted applications to the United
States Attorney General for Temporary Protected Status
(“TPS”). See 8 U.S.C. §1254(a). The United States
Citizenship and Immigration Services (“USCIS”) granted
them Temporary Protected Status. Id. 1 4. And over the
next several years, the Attorney General periodically
extended the TPS eligibility for Plaintiffs and other El
Salvadorian nationals. See 81 F.R. 44645-51 (July 8,2016).

23a
In June 2014, Plaintiffs attempted another change of
status. Compl. [Doc. No. 1]. Iff 18-20. This time they filed
an 1-485 Application to Register Permanent Residence or
Adjustment of Status. Id. USCIS denied the application
in March 2015. Id.
Following USCIS’s denial, Plaintiffs filed a Complaint
in this Court seeking relief through a Writ of Mandamus
and Declaratory Judgment regarding their statutory
eligibility to adjust status. Id. Plaintiffs also alleged due
process violations. Id. In November 2016, USCIS
reopened their 1-485 application and issued a Notice of
Intent to Deny (“NOID”). Pis. SMOF 111. The NOID
found Plaintiffs to be “statutorily ineligible” for
adjustment of status. Id.
On February 8, 2017, USCIS formally denied the
application for adjustment of status. Id. It 13. In the
denial letter, USCIS indicated that Plaintiff Sanchez had
not been admitted and inspected into the United States
because he had engaged in unauthorized employment that
exceeded 180 days; he therefore was “statutorily
ineligible” to adjust his status under 8 U.S.C. §1255(a). Id.
114. USCIS also denied Gonzalez’s adjustment because
it was dependent on Sanchez’s approval. Id. at 115.
While USCIS recognized that Sanchez’s past entry into
the United States was via parole, it concluded that neither
this parole nor his TPS were proper “admissions” to
overcome the bar to his adjustment of status at 8 U.S.C.
§ 1255(c) for unauthorized employment. Defs Br. [Doc.
No. 27-1] at 3.
The parties now both move for summary judgment on
Plaintiffs’ claim for mandamus relief and declaratory
judgment under the Immigration and Nationality Act
(“INA”) and Administrative Procedures Act (“APA”). 8

24a
U.S.C. § 1101, et. seq.; 5 U.S.C. § 706. Following the
USCIS denial, Defendants filed the instant motion for
summary judgment and motion to dismiss for lack of
jurisdiction. [Doc. No. 27]. Defendants argue that the
USCIS decision should be upheld as a matter of law,
Plaintiffs’ request for mandamus relief should be
dismissed as moot, and Plaintiffs’ substantive due process
claim should be denied. Defs Br. at 9-12. Plaintiffs
similarly filed a Motion for Summary Judgment. [Doc.
No. 28]. There, Plaintiffs argue that a grant of TPS under
§ 1254(a)(f)(4) is sufficient to meet the requirement of a
“lawful admission” into the United States under § 1255(a).
Pis. Br. at 2. This Court now considers these motions and
the corresponding briefs.
II.

MOTIONS FOR SUMMARY JUDGMENT ON
ADMINISTRATIVE PROCEDURES ACT
CLAIM
A. Standards of Review
1. Summary Judgment Standard

A court should grant a motion for summary judgment
when the moving party “shows that there is no genuine
dispute as to any material fact and that the movant is
entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). An issue is “material” to the dispute if it could alter
the outcome, and a dispute of a material fact is “genuine”
if “a reasonable jury could return a verdict for the
nonmoving party.” Anderson v. Liberty Lobby, Inc., All
U.S. 242, 248 (1986); Matsushita Elec. Indus. Co., Ltd. v.
Zenith Radio Corp., 475 U.S. 574, 587 (1986) (“Where the
record taken as a whole could not lead a rational trier of
fact to find for the non-moving party, there is no ‘genuine
issue for trial.’”) (quoting First Nat’l Bank ofAz. v. Cities

25a
Serv. Co., 391 U.S. 253, 289 (1968)). In deciding whether
there is any genuine issue for trial, the court is not to
weigh evidence or decide issues of fact. Anderson, 477
U.S. at 248. Because fact and credibility determinations
are for the jury, the non-moving party’s evidence is to be
believed and ambiguities construed in its favor. Id. at 255;
Matsushita, 475 U.S. at 587.
Although the movant bears the burden of
demonstrating that there is no genuine issue of material
fact, the non-movant likewise must present more than
mere allegations or denials to successfully oppose
summary judgment. Anderson, 477 U.S. at 256. The non­
moving party must at least put forth probative evidence
from which the jury might return a verdict in his favor. Id.
at 257. Where the non-moving party fails to “make a
showing sufficient to establish the existence of an element
essential to that party’s case, and on which that party will
bear the burden of proof at trial,” the movant is entitled to
summary judgment. Celotex Corp. v. Catrett, 477 U.S.
317, 322 (1986).
2. Reviewing
Decision

an

Administrative

Agency

The scope of judicial review of agency rulemaking
under the Administrative Procedures Act “is narrow and
a court is not to substitute its judgment for that of the
agency.” Motor Vehicle Mfrs. Ass’n v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 43 (1983). Although a
reviewing court “may not supply a reasoned basis for the
agency’s action that the agency itself has not given,” it
may nevertheless “uphold a decision of less than ideal
clarity if the agency’s path may reasonably be discerned.”
Id.

26a
A federal court reviewing an administrative agency
decision adopts the “arbitrary and capricious standard.” 5
U.S.C. § 706(2)(A). Under that standard, a court may
conclude that a regulation is arbitrary and capricious only
“if the agency relied on facts other than those intended by
Congress, did not consider ‘an important aspect’ of the
issue confronting the agency, provided an explanation for
its decision which ‘runs counter to the evidence before the
agency,’ or is entirely implausible.” Rite Aid of Pa., Inc.
v. Houstoun, 171 F.3d 842,853 (3d Cir. 1999). Relatedly,
the “judiciary is the final authority on issues of statutory
construction and must reject administrative constructions
which are contrary to clear congressional intent.”
Chevron, U.S.A., Inc. v. Nat’l Res. Defense Council, Inc.,
467 U.S. 837,843 n. 9 (1984).
The review of an agency’s interpretation of a statute is
a two-part analysis. Id. At step one, the court must
determine “whether Congress has directly spoken to the
precise question at issue” and “unambiguously expressed
[its] intent.” Id. at 842-43. If so, the inquiry ends, as both
the agency and the court must give effect to the plain
language of the statute. Id. at 842-43. If “the statute is
silent or ambiguous with respect to the specific issue,” the
court proceeds to step two and inquires whether the
agency’s determination is based “on a permissible
construction of the statute.” Id. at 843. Under this second
prong, Chevron “requires a federal court to accept the
agency’s construction of the statute, even if the agency’s
reading differs from what the court believes is the best
statutory interpretation.” Nat’l Cable & Telecomms.
Ass’nv. BrandXInternet Servs., 545 U.S. 967,980, (2005)
(citing Chevron, 467 U.S. at 843-44 & n. 11). Said another
way, the agency’s interpretation “governs if it is a

27a
reasonable interpretation of the statute—not necessarily
the only possible interpretation, nor even the
interpretation deemed most reasonable by the courts.”
Energy Corp. v. Riverskeeper, Inc., 556 U.S. 208 (2009).
B. DISCUSSION
The parties both move for summary judgment on
Plaintiffs’ claim for declaratory judgment under the
Immigration and Nationality Act (“INA”) and
Administrative Procedures Act (“APA”). 8 U.S.C. § 1101,
et. seq5 U.S.C. § 706. The parties agree that the central
issue in this matter is one of statutory interpretation:
whether the grant of Temporary Protected Status under
8 U.S.C. § 1254(a) satisfies the threshold requirement of
being “inspected and admitted or paroled into the United
States” for purposes of adjustment of status under 8
U.S.C. § 1255(a). Plaintiffs argue that the plain language
of § 1254(a)(f)(4) governs § 1255. Meanwhile, Defendants
argue that § 1255(c) precludes Plaintiffs’ application
because Plaintiff Sanchez entered without inspection and
engaged in unauthorized employment.
1. Relevant Statutes
a. Definition of Admission and Admitted
under INA: § 1101(a)(13)(A)
The terms ‘admission’ and ‘admitted’ mean,
with respect to an alien, the lawful entry of
the alien to the United States after
inspection and authorization by an
immigration officer.
8 U.S.C. 1101(a)(13)(A)(emphasis added)
b. Temporary Protected Status: § 1254(a)(f):
During a period in which an alien is granted

28a
temporary protected status under this
section—
(1) the alien shall not be considered to
be permanently residing in the
United States under color of law;
(2) the alien may be deemed ineligible
for public assistance by a State (as
defined in section 1101(a)(36) of this
title) or any political subdivision
thereof which furnishes such
assistance;
(3) the alien may travel abroad with the
prior consent of the Attorney
General; and
(4) for purposes of adjustment of status
under section 1225 of this title and
change of status under section 1258
of this title, the alien shall be
considered as being in, and
maintaining, lawful status as a
nonimmigrant.
8 U.S.C. § 1254(a)(f) (emphasis added)
c. Adjustment of Status: § 1255(a)
The status of an alien who was inspected
and admitted or paroled into the United
States ... may be adjusted by the Attorney
General, in his discretion and under such
regulations as he may prescribe, to that of
an alien lawfully admitted for permanent
residence, if,
(1) the alien makes an application for

29a
such adjustment,
(2) the alien is eligible to receive an
immigrant visa and is admissible to
the United States for permanent
residence, and
(3) an immigrant visa is immediately
available to him at the time his
application is filed.
8 U.S.C. § 1255(a)(emphasis added)
d. Bars to Adjustment: § 1255(c)(2)
... [SJubsection (a) shall not be applicable
to .... [A]n alien... who hereafter
continues in or accepts unauthorized
employment prior to filing an application
for adjustment of status or who is in
unlawful immigration status on the date of
filing the application for adjustment of
status or who has failed (other than through
no fault of his own or for technical reasons)
to maintain continuously a lawful status
since entry into the United States;
8 U.S.C. § 1255(c)(2)(emphasis added)
e. Waiver of Ineligibility Bar: § 1255(h)
An alien who is eligible to receive an
immigrant visa under paragraph (1), (2), or
(3) of section 1153(b) of this title (or, in the
case of an alien who is an immigrant
described in section 1101(a)(27)(C) of this
title, under section 1153(b)(4) of this title)
may adjust status pursuant to subsection

30a
(a) and notwithstanding subsection (c)(2),
(c)(7), and (c)(8), if—
(1) The alien, on the date of filing an
application for adjustment of status,
is present in the United States
pursuant to a lawful admission-,
(2) The alien, subsequent to such lawful
admission has not, for an aggregate
period exceeding 180 days—
(A) failed to maintain, continuously, a
lawful status;
(B) engaged
employment; or

in

unauthorized

(C) otherwise violated the terms and
conditions of the alien’s admission.
8 U.S.C. § 1255(k) (emphasis added)
2. Statutory Interpretation
Under the Administrative Procedure Act (“APA”),
federal courts can review an agency’s interpretation of a
statute. 5 U.S.C. § 706. As explained, “If the intent of
Congress is clear, that is the end of the matter; for the
court, as well as the agency, must give effect to the
unambiguously expressed intent of Congress.” Chevron,
467 U.S. at 842-43. In determining the intent of Congress,
the Court must consider “not only the particular statutory
language, but to the design of the statute as a whole and
its object and policy.” U.S. ex rel. Stinson, Lyons, Gerlin
Bustamante, P.A. v. Prudential Ins. Co., 944 F.2d 1149,
1155 (3d Cir. 1991) (internal quotation omitted).
Here, the central point of disagreement relates to the

31a
meaning of § 1255(a), which states, “the status of an alien
who was inspected and admitted or paroled” may be
adjusted. Id. Defendants argue that Plaintiff Sanchez,
who initially entered the U.S. without inspection, can
never satisfy the threshold requirement of being
“admitted.” Meanwhile, Plaintiffs argues that the plain
language of § 1254(a)(f) satisfies the threshold
requirement of § 1255(a). Specifically, Plaintiffs argue
that Sanchez satisfied the requirement by virtue of the
TPS because 8 U.S.C. § 1254a(f)(4) states, “[djuring a
period in which an alien is granted temporary protected
status under this section... for purposes of adjustment of
status under § 1255 of this title ... the alien shall be
considered being in, and maintaining, lawful status as a
nonimmigrant.” Id. (emphasis added).
This Court finds the statute clear and unambiguous.
Section 1254(a)(f)(4) applies to the entirety of § 1255.
Again, section 1254(a)(f)(4) states, “for purposes of
adjustment of status under section 1255 of this title and
change of status under section 1258 of this title, the alien
shall be considered as being in, and maintaining, lawful
status as a nonimmigrant.” (emphasis added). This
lawful status is wholly consistent with being considered as
though Plaintiffs had been “inspected and admitted”
under § 1255.
This Court further notes that other courts support this
conclusion.
See Flores v. U.S. Citizenship and
Immigration Serv., 718 F.3d 548,533 (6th Cir. 2013) (“We
interpret the statute exactly as writing - as allowing [the
applicant] to be considered as being in lawful status as a
nonimmigrant for purposes of adjustment of status under
§1255.”); Medina v. Beers, 65 F. Supp. 3d 419, 429
(E.D.Pa. 2014) (“By its clear terms, § 1254(a)(f)(4) applies

32a
to the entirety of § 1255 and thereby satisfies the
‘inspected and admitted or paroled’ prerequisite of
§ 1255(a)”). See also Bonilla v. Johnson, 149 F.3d 1135
(D. MN. 2016); Ramirez v. Dougherty, 23 F. Supp. 3d
1322,1324 (W.D. Wash. 2014).
Defendants argue that the Court should ignore this line
of cases and adopt the Eleventh Circuit’s more narrow
interpretation. See Serrano v. U.S. Attorney General, 655
F.3d 1260, 1265 (11th Cir. 1011). In Serrano, the Court
interpreted § 1254(a)(f)(4) and § 1255(a) distinctly. Id.
(“That an alien with Temporary Protected Status has
‘lawful status as a nonimmigrant’ for purposes of adjusting
his status does not change § 1255(a)’s threshold
requirement that he is eligible for adjustment of status
only if he was initially inspected and admitted or
paroled.”)
The Eleventh Circuit’s reading offers little persuasive
analysis, however. While the Plaintiffs here — like the
Sixth Circuit in Flores and the district Court in
Ramirez — attempt to distinguish Serrano on the ground
that the petitioner there did not disclose his illegal entry
into the country in his TPS application, Serrano, 655 F.3d
at 1265 n.4, the Ninth Circuit correctly concluded that this
factual difference does not appear to bear on the Eleventh
Circuit’s conclusion. Ramirez v. Brown, 852 F.3d 954,960
(9th Cir. 2017). More generally, Serrano offers little
reasoning to support its reading of these statutes. The
conclusion is simply because it is.
Peeling back the veneer of Serrano, Defendants offer
little else to support such a narrow reading of
§ 1254(a)(f)(4). Specifically, Defendants conclude that
Sanchez’s lawful status was not “maintained” under § 1254
because of his unauthorized work prior to the grant of

33a
Temporary Protected Status,
This argument is
fundamentally flawed, however.
Most obviously,
§ 1254(a)(f)(4) governs “a period in which an alien is
granted temporary protected status ...” Id. (emphasis
added). The government, however, focuses on Sanchez’s
work in the 1990s, long before his grant of TPS. Thus, the
government essentially argues that work predating
Sanchez’s lawful status bars his later ability to “maintain”
a lawful status.
This reading of § 1254 does not make sense to the Court.
In the most simplistic and common-sense terms, a person
must first have lawful status in order to “maintain” that
lawful status. By way of analogy, a person who fails to
maintain her garden must first have a garden. The
government ignores this common sense understanding
and instead insists that Plaintiff Sanchez could never have
maintained lawful status “because of the period of his
unlawful status and unauthorized employment prior to
obtaining TPS.” Defs Br. at 12.
The
Defendants’
additional
arguments
are
unpersuasive. Similar to the government in Medina,
Defendants here argue that the references to “admission”
and “lawful status” within sections 1254 and 1255 refer to
separate requirements under the law. Defendants
accordingly conclude that the term “admission” and
“admitted” mean a physical entry into the United
States —“a positional event.” Defs Br. at 16 (emphasis
added). Relying on both § 1101(a)(13)(A) and the Third
Circuit’s ruling in Hanifv. Attorney General of the United
States, 694 F.3d 2479 (3d Cir. 2012), Defendants suggest
that obtaining “lawful status as a nonimmigrant” under
§ 1254(a) cannot mean physical admission under § 1255.
Again, this Court is not fooled by the government’s

34a
careful attempt to parse words in light of § 1255’s clear
language.
See Medina, 65 F. Supp. 3d at 436
(“Defendants’ repeated attempts to twist this basic
language into either meaning something extremely
specific or applying only to specific portions of § 1255
constitute tortured interpretations that do not comport
with a plain language reading.”) Nor is this Court
convinced by the argument for blind deference to the
agency’s determinations. See Flores, 718 F.3d at 555
(“[b]eing consistently wrong does not afford this agency
more deference than having valid reasoning.”)
While this Court relies predominantly on the statute’s
clear and unambiguous language, it agrees with Judge
Buckwalter’s analysis in Medina when considering the
Defendant’s remaining arguments.
Medina, 65
F.Supp.3d at 429-36 (addressing the government’s
arguments that (1) Congress intended different meanings
for the words “lawful status as a nonimmigrant” from
“inspected and admitted or paroled”; (2) if plaintiffs
interpretation is correct, there would be no need for § 1255
to separately refer to admission or parole as a threshold
requirement in subsection (a), and to refer to the failure to
maintain lawful status as a bar to eligibility in subsection
(c); (3) the plain language of § 1254(a)(f) addresses only
the bar to adjustment of status in § 1255(c)(2);
(4) plaintiffs interpretation of the statutory language
conflicts with portions of § 1255; (5) the Court should
apply Serrano; and (6) the government’s interpretation is
consistent with Congressional intent. See also Bonilla v.
Johnson, 149 F.Supp.3d 1135 (D.MN. 2016) (summarizing
Medina's analysis of the arguments raised by the
government). Put simply, the government’s attempts,
while numerous, simply fail to overcome this Court’s

35a
reading of the statutes in question. Therefore, this Court
finds that a grant of Temporary Protected Status under
§ 1254(a)(f)(4) is sufficient to meet the requirement of
“inspected and admitted” under § 1255(a). Relatedly, the
agency’s ultimate decision was arbitrary and capricious.
To the extent that Plaintiffs ask for approval of their I485 application, Proposed Order [Doc. No 28-2], this Court
notes that adjustment of status under 8 U.S.C. 1255(a) is
a discretionary application reserved by the Attorney
General. Id. Thus, while the previous application was
based on a fundamental misinterpretation of the
controlling statutes, this Court cannot grant the
application as a matter of law. The case is therefore
remanded back to the USCIS for further review.
III.

DEFENDANTS’ MOTION TO DISMISS
A. Motion to Dismiss Standard

In considering a motion to dismiss, “courts accept all
factual allegations as true, construe the complaint in the
light most favorable to the plaintiff, and determine
whether, under any reasonable reading of the complaint,
the plaintiff may be entitled to relief.” Fowler v. UPMC
Shadyside, 578 F.3d 203, 210 (3d Cir. 2009) (quoting
Phillips v. Cty. of Allegheny, 515 F.3d 224, 233 (3d Cir.
2008) ). A complaint survives a motion to dismiss if it
contains enough factual matter, accepted as true, to “state
a claim to relief that is plausible on its face.” Ashcroft v.
Iqbal, 556 U.S. 662, 678 (2009); Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 570 (2007).
In reviewing a Motion to Dismiss, a court conducts a
three-part analysis. Santiago v. Warminster Twp., 629

36a
F.3d 121,130 (3d Cir. 2010). First, the court “takes note
of the elements a plaintiff must plead to state a claim.” Id.
(quoting Iqbal, 556 U.S. at 675). Second, the court
identifies allegations that, “because they are no more than
conclusions, are not entitled to the assumption of truth.”
Id. at 131 (quoting Iqbal, 556 U.S. at 680). Finally, “where
there are well-pleaded factual allegations,” the court
“assume[s] their veracity and then determine^] whether
they plausibly give rise to an entitlement for relief.” Id.
(quoting Iqbal, 556 U.S. at 680). This plausibility
determination is a “context-specific task that requires the
reviewing court to draw on its judicial experience and
common sense.” Iqbal, 556 U.S. at 679. A complaint
cannot survive where a court can only infer that a claim is
merely possible rather than plausible. Id.
B. Plaintiffs’ Request for Mandamus Relief
Defendants seek dismissal of Plaintiffs’ request for a
writ of mandamus. When USCIS has already adjudicated
an alien’s application for adjustment of status, a petition
for writ of mandamus is considered moot because there is
no justiciable case or controversy. See Hollingsworth v
Perry, 558 U.S. 183, 190 (2010). As discussed, after the
filing of Plaintiffs’ complaint, the USCIS issued a denial of
Plaintiffs’ application to adjust status,
Plaintiffs’
mandamus claim is therefore dismissed as moot.
C. Plaintiffs’ Due Process Claim
Defendants similarly seek to dismiss Plaintiffs’ claim of
due process violations. The complaint indicates that this
is a substantive due process claim because Defendants
“fail[ed] to give Plaintiffs [a] meaningful opportunity to
challenge the basis of the denial..Compl. at 10. To
state a due process claim under the Fifth Amendment,

37a
Plaintiffs first must establish they have been deprived of
a protected interest. Am. Mfrs. Mut. Ins. Co. v. Sullivan,
526 U.S. 40,59 (1999). A protected interest is a “legitimate
claim of entitlement.” Bd. Of Regents v. Roth, 408 U.S.
564, 577 (1972).
Here, Plaintiffs’ due process claim fails because they
cannot show they are entitled to the adjustment of status.
As explained, an adjustment of status under 8 U.S.C.
1255(a) is a discretionary determination made by the
Attorney General. Id. The Third Circuit explained in
Mudric, “While an alien may be eligible for a grant of
asylum or an adjustment of status under the immigration
laws, he is not entitled to such benefits as a constitutional
matter.” Mudric v. Att’y Gen. of U.S., 469 F.3d 94,98 (3d
Cir. 2006).
This Court further notes that Plaintiffs’ reliance on
Shaughnessy in the complaint is misguided. U.S. ex. Rel
Accardi v. Shaughnessy, 347 U.S. 260 (1954). There, the
Supreme Court found a substantive due process violation
because the agency “fail[ed] to exercise its own
discretion.” Id. at 268. As explained, the USCIS did
exercise discretion and denied the application. Even
though this Court found the determination to be arbitrary
and capricious, the agency did not “fail” to exercise
discretion like the agency had in Shaughnessy. This claim
is therefore denied.
IV.

CONCLUSION

Based on the foregoing, Plaintiffs’ Motion for Summary
Judgment as to the Administrative Procedures Act is
GRANTED, and Defendants’ competing Motion for
Summary Judgment is DENIED.
In addition,

38a
Defendants’ Motion to Dismiss Plaintiffs’ claims based on
mandamus relief and due process violations is
GRANTED. The case shall, therefore, be remanded to
the United States Citizenship and Immigration Service
for further review consistent with this Opinion and related
Order.
Dated: 12/7/2018

s/Robert B. Kugler
ROBERT B. KUGLER
United States District Judge

39a
APPENDIX C
February 8,2017

US. Dcfwrfmcm ofiletnttemi Svcerity

JOSE SANTOS SANCHEZ

U.S. Citizenship
□KXEiL! and Immigration
1WETSJ '> Services

US. Obrcntfnp tnd l rmrignhon Services
P.O.Box *2331
LiwoKNE 6*501-2521

x

US

RE: JOSE SANTOS
SANCHEZ
1-485, Application to
Register Permanent
Residence or Adjust Status
DECISION
This notice refers to your Form 1-485, Application to
Register Permanent Residence or Adjust Status, which
you filed on June 4, 2014. The application seeks
Employment-Based (EB) adjustment of status to Lawful
Permanent Resident (LPR) under section 245 of the
Immigration and Nationality Act (INA), as amended.
In a letter dated November 4, 2016, U.S. Citizenship and
Immigration Services (USCIS) notified you of its intent to
deny your application and set forth the reasons for that
intended decision. You were given opportunity to respond
to the intended denial, and your response was received on

40a
December 6, 2016, and added to the record. USCIS
concludes that you are not eligible for adjustment of
status as you have not been admitted and inspected, and
that you have engaged in unauthorized employment that
exceeds 180 days.
Statute and regulation restrict the eligibility of certain
aliens to apply for adjustment of status.
INA 245(a) limits adjustment of status, a discretionary
benefit, to applicants who are eligible to receive an
immigrant visa and admissible to the United States. An
applicant who, after admission, fails to continuously
maintain a lawful status, engages in unauthorized
employment or otherwise violates the terms and
conditions of their admission is barred from adjusting by
INA 245(c) and USCIS regulation.
INA 245(c) states, in pertinent part:
(c) Other than an alien having an approved petition for
classification as a VAWA self-petitioner,
subsection (a) shall not be applicable to...
(2) subject to subsection (k), an alien (other than an
immediate relative as defined in section 201(b)
or a special immigrant described in section 101
(a)(27)(H) , (I) , (J) , or (K)) who hereafter
continues in or accepts unauthorized
employment prior to filing an application for
adjustment of status or who is in unlawful
immigration status on the date of filing the
application for adjustment of status or who has
failed (other than through no fault of his own or

41a
for technical reasons) to maintain continuously
a lawful status since entry into the United
States;...
(7) any alien who seeks adjustment of status to that
of an immigrant under section 203(b) and is not
in a lawful nonimmigrant status; or
(8) any alien who was employed while the alien was
an unauthorized alien, as defined in section
274A(h)(3), or who has otherwise violated the
terms of a nonimmigrant visa.
Title 8, Code of Federal Regulations (CFR) Part 245.1(b)
states, in pertinent part:
Restricted Aliens. ... (6) Any alien who files an
application for adjustment of status on or after
November 6,1986, who has failed (other than through
no fault of his or her own or for technical reasons) to
maintain continuously a legal status since entry into
the United States ...
(9) Any alien who seeks adjustment of status
pursuant to an employment-based immigrant
visa petition under section 203(b) of the Act and
who is not maintaining a lawful nonimmigrant
status at the time he or she files an application
for adjustment of status; and
(10) Any alien who was ever employed in the
United States without authorization of the
Service....For purposes of this paragraph an
alien who meets the requirements of

42a
§274a. 12(c)(9) of this chapter shall not be
deemed to have engaged in unauthorized
employment during the pendency of his or her
adjustment application.
INA 274A(h)(3) defines the term “unauthorized alien” to
mean that “the alien is not...either (A) an alien lawfully
admitted for permanent residence, or (B) authorized to be
so employed by this Act or by the Attorney General.”
8 CFR 274a.l2(c)(9) states:
An alien who has filed an application for adjustment of
status to lawful permanent resident pursuant to part
245 of this chapter. For purposes of section 245(c)(8)
of the Act, an alien will not be deemed to be an
“unauthorized alien” as defined in section 274A(h)(3)
of the Act while his or her properly filed Form 1-485
application is pending final adjudication, if the alien
has otherwise obtained permission from the Service
pursuant to 8 CRF 274a.l2 to engage in employment...
INA 245(k) permits the adjustment of certain lawfully
admitted Employment-Based applicants despite limited
violations under INA 245(c)(2), (7) or (8). The full
provisions of INA 245(k) are as follows:
(k) An alien who is eligible to receive an immigrant
visa under paragraph (1), (2), or (3) of section
203(b) (or, in the case of an alien who is. an
immigrant described in section 101(a)(27)(C),
under section 203(b)(4)) may adjust status
pursuant to subsection (a) and notwithstanding
subsection (c)(2), (c)(7), and (c)(8), if—

43a
(1) the alien, on the date of filing an application for
adjustment of status, is present in the United
States pursuant to a lawful admission;
(2) the alien, subsequent to such lawful admission
has not, for an aggregate period exceeding 180
days—
(A) failed to maintain, continuously, a lawful
status;
(B) engaged in unauthorized employment; or
(C) otherwise violated the terms and conditions
of the alien’s admission.
For INA 245(k) adjustment purposes, lapses or violations
of lawful status are counted from the time of the
applicant’s last admission until filing for adjustment of
status. Any unauthorized employment is counted from the
time of the last admission until alien adjusts, as clarified
in chapter 23.5(d) of the Adjudicator’s Field Manual
(AFM):
(4) Counting against the 180 days timeframe...
If the adjudicator
(A) General Guidelines,
determines that an employment-based
adjustment of status applicant... is subject to
any of the bars to adjustment of status set forth
in Sections 245(c)(2), (c)(7), or (c)(8), then the
adjudicator must determine whether the
aggregate period in which the alien failed to
continuously maintain lawful status, worked

44a
without authorization, or otherwise violated the
terms and conditions of the alien’s admission
since the date of the alien’s last lawful
admission to the United States is 180 days or
less... An alien may be subject to more than
one bar or violation described in section
245(k)(2) at the same time... each day in which
one or more of these violations existed must be
counted as one day...
(B) Engaged in Unauthorized Employment.
(1) General.
“Unauthorized employment”
means any service or labor performed by an
alien for an employer within the United
States that is not authorized under 8 CFR
274a.l2(a), (b), or (c) or exceeds the
authorized period of employment. The
filing of an adjustment of status application
does not, in itself, authorize employment or
excuse unauthorized employment... With
respect to
engaging in unlawful
employment, the count commences on the
first date of the unauthorized employment
and continues until the date the
unauthorized employment ended, the date
an employment authorization document
(EAD) is approved, or the date the pending
adjustment of status application is
adjudicated... It is completely within the
control of the alien as to whether he or she
engages
in
employment
without
authorization...

45a
(C) Failed to Maintain a Lawful Status and/or
Violated the Terms of a Nonimmigrant Visa.
(1) General...for purposes of the 180-day
counting period, calculation of the number
of days for failing to maintain status or
violating a nonimmigrant visa will stop as of
the date USCIS receives a properly filed
adjustment of status application.
The documentation provided in support of your
application establishes that your last entry to the U.S. was
in 1997 without inspection. The record also shows this
entry was not an advance parole approved on the basis of
a Form 1-485 adjustment application which remains
pending currently, or a previous Form 1-485 which was
pending at the time the present Form 1-485 was filed.
Additionally, you state that you were employed without
authorization from the date you entered the United States
until the date you were granted Temporary Protected
Status (TPS) in 2001.
A foreign national who enters the United States without
inspection and subsequently is granted TPS does not meet
the inspected and admitted or inspected and paroled
requirement. There is no legislative provision or history
to suggest that Congress intended that recipients of TPS
be eligible for adjustment.
The 6th Circuit Court of Appeals has ruled that TPS
status meets the inspected and admitted requirement for
adjustment of status under INA 245 even if a foreign
national granted TPS status entered the United States
without inspection. See Flores v. USCIS, 718 F.3d 548

46a
(6th Cir. 2013). This decision is only binding on cases
within the jurisdiction of the 6th Circuit. The applicant
resides in the state of New Jersey which is not within the
6th Circuit’s jurisdiction.
USCIS’s approval of TPS confers lawful immigration
status on the foreign national, but only for the stipulated
time period and so long as the foreign national complies
with all TPS requirements. Recipients of TPS must still
meet the threshold requirement that a foreign national
has been inspected and admitted or inspected and paroled
in order to be eligible for adjustment of status. A grant of
TPS does not cure a foreign national’s entry without
inspection or constitute an inspection and admission of the
foreign national.
As an undocumented entrant, you were not inspected and
admitted or inspected and paroled. Therefore, you are not
eligible to adjust status under INA 245(a).
Further, you are not eligible to adjust status under INA
245(k). As the grant of TPS in 2001 is not an admission,
the unauthorized employment prior to that date counts
against the 180 day timeframe. The record shows that the
aggregate period of unauthorized employment exceeds
the 180 day maximum described under INA 245(k).
USCIS further reviewed your application to
determination whether you are eligible to overcome the
above restrictions and adjust under INA 245(i). To be
eligible under INA 245(i), an applicant must be the
beneficiary of a qualifying immigrant visa petition (or
labor certification) filed on or before April 30, 2001. The
record fails to show you are such an alien or that you are

47a
a grandfathered alien eligible to apply under INA 245(i)
through a prior immigrant visa petition (or labor
certification) properly filed on or before April 30,2001. As
such, you remain an alien restricted from adjusting as
described under INA 245(c)(2), (7) or (8) and this
application may not be approved.
In view of the above, you are ineligible to adjust your
status under INA 245.
In Matter of Tanahan 18 I&N Dec. 339 (Reg. Comm.
1981), it was found that an applicant for adjustment of
status under INA 245 who meets the objective
prerequisites is merely eligible to apply for adjustment of
status. An applicant is in no way entitled to adjustment.
When an alien seeks the favorable exercise of USCIS
discretion, it is incumbent on that person to establish that
he or she merits adjustment.
The application is denied.
USCIS regulations do not provide for an appeal to this
decision. However, you may file a motion to reopen or
reconsider within thirty days of the date on this decision
(33 days if this notice was received by mail). Any motion
must be filed using Form I-290B, Notice of Appeal or
Motion with the appropriate fee. Blank forms and current
fee information are available online at www.uscis.gov
under “Forms.” Forms are also available by calling the
USCIS National Customer Service Center (NCSC) at 1800-375-5283.

48a
Sincerely,
Is/ Mark J. Hazuda
Mark J. Hazuda
Director
Officer: 0375

49a
APPENDIX D
February 8,2017

D.8. DefmImnn gfllwittlMi) Security

US Gfe'zentftip *rd ImrigrtSiCT Services
P.O Bo* K252I
Linto'Ji, NE6I59U2321

SONIA GONZALEZ

US

RE: SONIA GONZALEZ
1-485, Application to
Register Permanent
Residence or Adjust Status
DECISION
This notice refers to your Form 1-485, Application to
Register Permanent Residence or Adjust Status, which
you filed on June 4, 2014. The application seeks
Employment-Based (EB) adjustment of status to Lawful
Permanent Resident (LPR) under section 245 of the
Immigration and Nationality Act (INA), as amended.
INA 203(d) states, in pertinent part:
A spouse or child as defined in subparagraph (A), (B),
(C), (D), or (E) of section 101(b)(1) shall, if not
otherwise entitled to an immigrant status and the
immediate issuance of a visa under subsection (a), (b),
or (c), be entitled to the same status, and the same

50a
order of consideration provided in the respective
subsection, if accompanying or following to join, the
spouse or parent.
The record establishes that your adjustment application is
dependent on the application of Jose Santos Sanchez, your
spouse, also filed on June 7, 2014. The record in that
matter establishes that your spouse’s adjustment
application has been denied. Therefore, there is no basis
on which to grant accompanying or following-to-join
status to a dependent spouse or child.
In Matter of Tanahan 18 I&N Dec. 339 (Reg. Comm.
1981), it was found that an applicant for adjustment of
status under INA 245 who meets the objective
prerequisites is merely eligible to apply for adjustment of
status. An applicant is in no way entitled to adjustment.
When an alien seeks the favorable exercise of USCIS
discretion, it is incumbent on that person to establish that
he or she merits adjustment. Because that establishment
has not been made here, your application must be, and
hereby is, denied.
USCIS regulations do not provide for an appeal to this
decision. However, you may file a motion to reopen or
reconsider within thirty days of the date on this decision
(33 days if this notice was received by mail). Any motion
must be filed using Form I-290B, Notice of Appeal or
Motion with the appropriate fee. Blank forms and current
fee information are available online at www.uscis.gov
under “Forms.” Forms are also available by calling the
USCIS National Customer Service Center (NCSC) at 1800-375-5283.

51a
Sincerely,
Is/ Mark J. Hazuda
Mark J. Hazuda
Director
Officer: 0375

52a
APPENDIX E
8 U.S.C. § 1101. Definitions
(a) As used in this chapter—
(13)(A) The terms “admission” and “admitted”
mean, with respect to an alien, the lawful entry of the
alien into the United States after inspection and
authorization by an immigration officer.
(15) The term “immigrant” means every alien
except an alien who is within one of the following
classes of nonimmigrant aliens(A)(i) an ambassador, public minister, or career
diplomatic or consular officer who has been
accredited by a foreign government, recognized de
jure by the United States and who is accepted by
the President or by the Secretary of State, and the
members of the alien’s immediate family;
(ii) upon a basis of reciprocity, other officials
and employees who have been accredited by a
foreign government recognized de jure by the
United States, who are accepted by the
Secretary of State, and the members of their
immediate families; and
(iii) upon a basis of reciprocity, attendants,
servants, personal employees, and members of
their immediate families, of the officials and
employees who have a nonimmigrant status
under (i) and (ii) above;

53a
(B)an alien (other than one coming for the
purpose of study or of performing skilled or
unskilled labor or as a representative of foreign
press, radio, film, or other foreign information
media coming to engage in such vocation) having a
residence in a foreign country which he has no
intention of abandoning and who is visiting the
United States temporarily for business or
temporarily for pleasure;
(C) an alien in immediate and continuous transit
through the United States, or an alien who qualifies
as a person entitled to pass in transit to and from
the United Nations Headquarters District and
foreign countries, under the provisions of
paragraphs (3), (4), and (5) of section 11 of the
Headquarters Agreement with the United Nations
(61 Stat. 758);
(D)(i) an alien crewman serving in good faith as
such in a capacity required for normal operation
and service on board a vessel, as defined in section
1288(a) of this title (other than a fishing vessel
having its home port or an operating base in the
United States), or aircraft, who intends to land
temporarily and solely in pursuit of his calling as a
crewman and to depart from the United States
■with the vessel or aircraft on which he arrived or
some other vessel or aircraft;
(ii) an alien crewman serving in good faith as
such in any capacity required for normal
operations and service aboard a fishing vessel
having its home port or an operating base in the
United States who intends to land temporarily
in Guam or the Commonwealth of the Northern

54a
Mariana Islands and solely in pursuit of his
calling as a crewman and to depart from Guam
or the Commonwealth of the Northern Mariana
Islands with the vessel on which he arrived;
(E) an alien entitled to enter the United States
under and in pursuance of the provisions of a treaty
of commerce and navigation between the United
States and the foreign state of which he is a
national, and the spouse and children of any such
alien if accompanying or following to join him;
(i) solely to carry on substantial trade, including
trade in services or trade in technology, principally
between the United States and the foreign state of
which he is a national; (ii) solely to develop and
direct the operations of an enterprise in which he
has invested, or of an enterprise in which he is
actively in the process of investing, a substantial
amount of capital; or (iii) solely to perform services
in a specialty occupation in the United States if the
alien is a national of the Commonwealth of
Australia and with respect to whom the Secretary
of Labor determines and certifies to the Secretary
of Homeland Security and the Secretary of State
that the intending employer has filed with the
Secretary of Labor an attestation under section
1182(t)(l) of this title;
(F) (i) an alien having a residence in a foreign
country which he has no intention of abandoning,
who is a bona fide student qualified to pursue a full
course of study and who seeks to enter the United
States temporarily and solely for the purpose of
pursuing such a course of study consistent with

55^
section 1184C01 of this title at an established
college, university, seminary, conservatory,
academic high school, elementary school, or other
academic institution or in an accredited language
training program in the United States, particularly
designated by him and approved by the Attorney
General after consultation with the Secretary of
Education, which institution or place of study shall
have agreed to report to the Attorney General the
termination of attendance of each nonimmigrant
student, and if any such institution of learning or
place of study fails to make reports promptly the
approval shall be withdrawn, (ii) the alien spouse
and minor children of any alien described in clause
(i) if accompanying or following to join such an
alien, and (iii) an alien who is a national of Canada
or Mexico, who maintains actual residence and
place of abode in the country of nationality, who is
described in clause (i) except that the alien’s
qualifications for and actual course of study may be
full or part-time, and who commutes to the United
States institution or place of study from Canada or
Mexico;
(G)(i) a
designated
principal
resident
representative of a foreign government recognized
de jure by the United States, which foreign
government is a member of an international
organization entitled to enjoy privileges,
exemptions, and immunities as an international
organization
under
the
International
Organizations Immunities Act (59 Stat. 669) [22
U.S.C. 288 et seq.], accredited resident members of
1 See References in Text note below.

56a
the staff of such representatives, and members of
his or their immediate family;
(ii) other accredited representatives of such a
foreign government to such international
organizations, and the members of their
immediate families;
(iii) an alien able to qualify under (i) or (ii)
above except for the fact that the government
of which such alien is an accredited
representative is not recognized de jure by the
United States, or that the government of which
he is an accredited representative is not a
member of such international organization; and
the members of his immediate family;
(iv) officers, or employees of such
international organizations, and the members
of their immediate families;
(v) attendants, servants, and personal
employees of any such representative, officer,
or employee, and the members of the
immediate families of such attendants,
servants, and personal employees;
(H)an alien (i) [(a) Repealed. Pub. L. 106-95,
§ 2(c), Nov. 12,1999,113 Stat. 1316] (b) subject to
section 1182(j)(2) of this title, who is coming
temporarily to the United States to perform
services (other than services described in
subclause (a) during the period in which such
subclause applies and other than services
described in subclause (ii)(a) or in subparagraph
(0) or (P)) in a specialty occupation described in
section 1184(i)(l) of this title or as a fashion model,

57a
who meets the requirements for the occupation
specified in section 1184(i)(2) of this title or, in the
case of a fashion model, is of distinguished merit
and ability, and with respect to whom the Secretary
of Labor determines and certifies to the Attorney
General that the intending employer has filed with
the Secretary an application under section
1182(n)(l) of this title, or (bl) who is entitled to
enter the United States under and in pursuance of
the provisions of an agreement listed in section
1184(g)(8)(A) of this title, who is engaged in a
specialty occupation described in section 1184(i)(3)
of this title, and with respect to whom the
Secretary of Labor determines and certifies to the
Secretary of Homeland Security and the Secretary
of State that the intending employer has filed with
the Secretary of Labor an attestation under section
1182(t)(l) of this title, or (c) who is coming
temporarily to the United States to perform
services as a registered nurse, who meets the
qualifications described in section 1182(m)(l) of
this title, and with respect to whom the Secretary
of Labor determines and certifies to the Attorney
General that an unexpired attestation is on file and
in effect under section 1182(m)(2) of this title for
the facility (as defined in section 1182(m)(6) of this
title) for which the alien will perform the services;
or (ii)(a) having a residence in a foreign country
which he has no intention of abandoning who is
coming temporarily to the United States to
perform agricultural labor or services, as defined
by the Secretary of Labor in regulations and
including agricultural labor defined in section
3121(g) of title 26, agriculture as defined in section

58a
203(f) of title 29, and the pressing of apples for
cider on a farm, of a temporary or seasonal nature,
or (b) having a residence in a foreign country which
he has no intention of abandoning who is coming
temporarily to the United States to perform other
temporary service or labor if unemployed persons
capable of performing such service or labor cannot
be found in this country, but this clause shall not
apply to graduates of medical schools coming to the
United States to perform services as members of
the medical profession; or (iii) having a residence in
a foreign country which he has no intention of
abandoning who is coming temporarily to the
United States as a trainee, other than to receive
graduate medical education or training, in a
training program that is not designed primarily to
provide productive employment; and the alien
spouse and minor children of any such alien
specified in this paragraph if accompanying him or
following to join him;
(I) upon a basis of reciprocity, an alien who is a
bona fide representative of foreign press, radio,
film, or other foreign information media, who seeks
to enter the United States solely to engage in such
vocation, and the spouse and children of such a
representative, if accompanying or following to join
him;
(J) an alien having a residence in a foreign
country which he has no intention of abandoning
who is a bona fide student, scholar, trainee,
teacher, professor, research assistant, specialist, or
leader in a field of specialized knowledge or skill, or
other person of similar description, who is coming

59a
temporarily to the United States as a participant in
a program designated by the Director of the
United States Information Agency, for the purpose
of teaching, instructing or lecturing, studying,
observing, conducting research, consulting,
demonstrating special skills, or receiving training
and who, if he is coming to the United States to
participate in a program under which he will
receive graduate medical education or training,
also meets the requirements of section 1182(j) of
this title, and the alien spouse and minor children
of any such alien if accompanying him or following
to join him;
(K) subject to subsections (d) and (p)2 of section
1184 of this title, an alien who—
(i) is the fiancee or fiance of a citizen of the
United States (other than a citizen described in
section 1154(a)(1)(A)(viii)(I) of this title) and
who seeks to enter the United States solely to
conclude a valid marriage with the petitioner
within ninety days after admission;
(ii) has concluded a valid marriage with a
citizen of the United States (other than a citizen
described in section 1154(a)(l)(A)(viii)(I) of this
title) who is the petitioner, is the beneficiary of
a petition to accord a status under section
1151(b)(2)(A)(i) of this title that was filed under
section 1154 of this title by the petitioner, and
seeks to enter the United States to await the
approval of such petition and the availability to
the alien of an immigrant visa; or
2 See References in Text note below.

60a
(iii) is the minor child of an alien described in
clause (i) or (ii) and is accompanying, or
following to join, the alien;
(L) subject to section 1184(c)(2) of this title, an
alien who, within 3 years preceding the time of his
application for admission into the United States,
has been employed continuously for one year by a
firm or corporation or other legal entity or an
affiliate or subsidiary thereof and who seeks to
enter the United States temporarily in order to
continue to render his services to the same
employer or a subsidiary or affiliate thereof in a
capacity that is managerial, executive, or involves
specialized knowledge, and the alien spouse and
minor children of any such alien if accompanying
him or following to join him;
(M)(i) an alien having a residence in a foreign
country which he has no intention of abandoning
who seeks to enter the United States temporarily
and solely for the purpose of pursuing a full course
of study at an established vocational or other
recognized nonacademic institution (other than in
a language training program) in the United States
particularly designated by him and approved by
the Attorney General, after consultation with the
Secretary of Education, which institution shall
have agreed to report to the Attorney General the
termination of attendance of each nonimmigrant
nonacademic student and if any such institution
fails to make reports promptly the approval shall
be withdrawn, (ii) the alien spouse and minor
children of any alien described in clause (i) if
accompanying or following to join such an alien,

61a
and (iii) an alien who is a national of Canada or
Mexico, who maintains actual residence and place
of abode in the country of nationality, who is
described in clause (i) except that the alien’s course
of study may be full or part-time, and who
commutes to the United States institution or place
of study from Canada or Mexico;
(N)(i) the parent of an alien accorded the status
of special immigrant under paragraph (27)(I)(i) (or
under analogous authority under paragraph
(27)(L)), but only if and while the alien is a child, or
(ii) a child of such parent or of an alien
accorded the status of a special immigrant
under clause (ii), (iii), or (iv) of paragraph (27)(I)
(or under analogous authority under paragraph
(27)(L));
(0) an alien who(i) has extraordinary ability in the sciences,
arts, education, business, or athletics which has
been demonstrated by sustained national or
international acclaim or, with regard to motion
picture and television productions a
demonstrated record
of extraordinary
achievement, and whose achievements have
been recognized in the field through extensive
documentation, and seeks to enter the United
States to continue work in the area of
extraordinary ability; or
(ii) (I) seeks to enter the United States
temporarily and solely for the purpose of
accompanying and assisting in the artistic or
athletic performance by an alien who is

62a
admitted under clause (i) for a specific event or
events,
(II) is an integral part of such actual
performance,
(III) (a) has critical skills and experience
with such alien which are not of a general
nature and which cannot be performed by
other individuals, or (b) in the case of a
motion picture or television production, has
skills and experience with such alien which
are not of a general nature and which are
critical either based on a pre-existing
longstanding working relationship or, with
respect to the specific production, because
significant production (including pre- and
post-production work) will take place both
inside and outside the United States and the
continuing participation of the alien is
essential to the successful completion of the
production, and
(IV) has a foreign residence which the
alien has no intention of abandoning; or
(iii) is the alien spouse or child of an alien
described in clause (i) or (ii) and is
accompanying, or following to join, the alien;
(P) an alien having a foreign residence which the
alien has no intention of abandoning who—
(i)(a) is described in section 1184(c)(4)(A) of
this title (relating to athletes), or (b) is
described in section 1184(c)(4)(B) of this title
(relating to entertainment groups);

63a
(ii)(I) performs as an artist or entertainer,
individually or as part of a group, or is an
integral part of the performance of such a
group, and
(II) seeks to enter the United States
temporarily and solely for the purpose of
performing as such an artist or entertainer
or with such a group under a reciprocal
exchange program which is between an
organization or organizations in the United
States and an organization or organizations
in one or more foreign states and which
provides for the temporary exchange of
artists and entertainers, or groups of artists
and entertainers;
(iii)(I) performs as an artist or entertainer,
individually or as part of a group, or is an
integral part of the performance of such a
group, and
(II) seeks to enter the United States
temporarily and solely to perform, teach, or
coach as such an artist or entertainer or
with such a group under a commercial or
noncommercial program that is culturally
unique; or
(iv) is the spouse or child of an alien described
in clause (i), (ii), or (iii) and is accompanying, or
following to join, the alien;
(Q)an alien having a residence in a foreign
country which he has no intention of abandoning
who is coming temporarily (for a period not to
exceed 15 months) to the United States as a

64a
participant in an international cultural exchange
program approved by the Secretary of Homeland
Security for the purpose of providing practical
training, employment, and the sharing of the
history, culture, and traditions of the country of the
alien’s nationality and who will be employed under
the same wages and working conditions as
domestic workers;
(R) an alien, and the spouse and children of the
alien if accompanying or following to join the alien,
who—
(i) for the 2 years immediately preceding the
time of application for admission, has been a
member of a religious denomination having a
bona fide nonprofit, religious organization in
the United States; and
(ii) seeks to enter the United States for a
period not to exceed 5 years to perform the
work described in subclause (I), (II), or (III) of
paragraph (27)(C)(ii);
(S) subject to section 1184(k) of this title, an
alien(i) who the Attorney General determines(I) is in possession of critical reliable
information
concerning
a
criminal
organization or enterprise;
(II) is willing to supply or has supplied
such information to Federal or State law
enforcement authorities or a Federal or
State court; and
(III) whose presence in the United States

65a
the Attorney General determines is
essential to the success of an authorized
criminal investigation or the successful
prosecution of an individual involved in the
criminal organization or enterprise; or
(ii)who the Secretary of State and the
Attorney General jointly determine—
(I) is in possession of critical reliable
information
concerning
a
terrorist
organization, enterprise, or operation;
(II) is willing to supply or has supplied
such information to Federal law
enforcement authorities or a Federal court;
(III) will be or has been placed in danger
as a result of providing such information;
and
(IV) is eligible to receive a reward under
section 2708(a) of Title 22,
and, if the Attorney General (or with respect to
clause (ii), the Secretary of State and the Attorney
General jointly) considers it to be appropriate, the
spouse, married and unmarried sons and
daughters, and parents of an alien described in
clause (i) or (ii) if accompanying, or following to
join, the alien;
(T)(i) subject to section 1184(o) of this title, an
alien who the Secretary of Homeland Security, or
in the case of subclause (III)(aa) the Secretary of
Homeland Security, in consultation with the
Attorney General, determines(I) is or has been a victim of a severe form

66a
of trafficking in persons, as defined in
section 7102 of title 22;
(II) is physically present in the United
States, American Samoa,
or the
Commonwealth of the Northern Mariana
Islands, or at a port of entry thereto, on
account of such trafficking, including
physical presence on account of the alien
having been allowed entry into the United
States for participation in investigative or
judicial processes associated with an act or
a perpetrator of trafficking;
(III)(aa) has
complied
with
any
reasonable request for assistance in the
Federal, State, or local investigation or
prosecution of acts of trafficking or the
investigation of crime where acts of
trafficking are at least one central reason
for the commission of that crime;
(bb) in consultation with the Attorney
General, as appropriate, is unable to
cooperate with a request described in item
(aa) due to physical or psychological
trauma; or
(cc) has not attained 18 years of age; and
(IV) the alien3 would suffer extreme
hardship involving unusual and severe harm
upon removal; and
(ii) if accompanying, or following to join, the

3 So in original. The words “the alien” probably should not appear.

67a
alien described in clause (i)~
(I) in the case of an alien described in
clause (i) who is under 21 years of age, the
spouse, children, unmarried siblings under
18 years of age on the date on which such
alien applied for status under such clause,
and parents of such alien;
(II) in the case of an alien described in
clause (i) who is 21 years of age or older, the
spouse and children of such alien; or
(III) any parent or unmarried sibling
under 18 years of age, or any adult or minor
children of a derivative beneficiary of the
alien, as of an alien described in subclause
(I) or (II) who the Secretary of Homeland
Security, in consultation with the law
enforcement officer investigating a severe
form of trafficking, determines faces a
present danger of retaliation as a result of
the alien’s escape from the severe form of
trafficking or cooperation with law
enforcement.
(U)(i) subject to section 1184(p) of this title, an
alien who files a petition for status under this
subparagraph, if the Secretary of Homeland
Security determines that(I) the alien has suffered substantial
physical or mental abuse as a result of
having been a victim of criminal activity
described in clause (iii);
(II) the alien (or in the case of an alien

68a
child under the age of 16, the parent,
guardian, or next friend of the alien)
possesses information concerning criminal
activity described in clause (iii);
(III) the alien (or in the case of an alien
child under the age of 16, the parent,
guardian, or next friend of the alien) has
been helpful, is being helpful, or is likely to
be helpful to a Federal, State, or local law
enforcement official, to a Federal, State, or
local prosecutor, to a Federal or State
judge, to the Service, or to other Federal,
State, or local authorities investigating or
prosecuting criminal activity described in
clause (iii); and
(IV) the criminal activity described in
clause (iii) violated the laws of the United
States or occurred in the United States
(including in Indian country and military
installations) or the territories and
possessions of the United States;
(ii) if accompanying, or following to join, the
alien described in clause (i)~
(I) in the case of an alien described in
clause (i) who is under 21 years of age, the
spouse, children, unmarried siblings under
18 years of age on the date on which such
alien applied for status under such clause,
and parents of such alien; or
(II) in the case of an alien described in
clause (i) who is 21 years of age or older, the
spouse and children of such alien; and

69a
(iii) the criminal activity referred to in this
clause is that involving one or more of the
following or any similar activity in violation of
Federal, State, or local criminal law: rape;
torture; trafficking; incest; domestic violence;
sexual assault; abusive sexual contact;
prostitution; sexual exploitation; stalking;
female genital mutilation; being held hostage;
peonage; involuntary servitude; slave trade;
kidnapping; abduction; unlawful criminal
restraint; false imprisonment; blackmail;
extortion; manslaughter; murder; felonious
assault; witness tampering; obstruction of
justice; perjury; fraud in foreign labor
contracting (as defined in section 1351 of title
18); or attempt, conspiracy, or solicitation to
commit any of the above mentioned crimes; or
(V) subject to section 1184(q) of this title, an alien
who is the beneficiary (including a child of the
principal alien, if eligible to receive a visa under
section 1153(d) of this title) of a petition to accord a
status under section 1153(a)(2)(A) of this title that
was filed with the Attorney General under section
1154 of this title on or before December 21, 2000,
if—
(i) such petition has been pending for 3 years
or more; or
(ii) such petition has been approved, 3 years
or more have elapsed since such filing date,
and~
(I) an immigrant visa is not immediately
available to the alien because of a waiting

70a
list of applicants for visas under section
1153(a)(2)(A) of this title; or
(II) the alien’s application for an
immigrant visa, or the alien’s application for
adjustment of status under section 1255 of
this title, pursuant to the approval of such
petition, remains pending.
*

*

*

*

*

71a
APPENDIX F
8 U.S.C. § 1184. Admission of nonimmigrants
(a) Regulations
(1) The admission to the United States of any alien
as a nonimmigrant shall be for such time and under
such conditions as the Attorney General may by
regulations prescribe, including when he deems
necessary the giving of a bond with sufficient surety in
such sum and containing such conditions as the
Attorney General shall prescribe, to insure that at the
expiration of such time or upon failure to maintain the
status under which he was admitted, or to maintain
any status subsequently acquired under section 1258
of this title, such alien will depart from the United
States. No alien admitted to Guam or the
Commonwealth of the Northern Mariana Islands
without a visa pursuant to section 1182(0 of this title
may be authorized to enter or stay in the United States
other than in Guam or the Commonwealth of the
Northern Mariana Islands or to remain in Guam or the
Commonwealth of the Northern Mariana Islands for a
period exceeding 45 days from date of admission to
Guam or the Commonwealth of the Northern Mariana
Islands. No alien admitted to the United States
without a visa pursuant to section 1187 of this title may
be authorized to remain in the United States as a
nonimmigrant visitor for a period exceeding 90 days
from the date of admission.

72a
APPENDIX G
8 U.S.C. § 1254a. Temporary protected status
(a) Granting of status
(1) In general
In the case of an alien who is a national of a foreign
state designated under subsection (b) of this section
(or in the case of an alien having no nationality, is a
person who last habitually resided in such designated
state) and who meets the requirements of subsection
(c) of this section, the Attorney General, in accordance
with this section—
(A) may grant the alien temporary protected
status in the United States and shall not remove
the alien from the United States during the period
in which such status is in effect, and
(B) shall authorize the alien to engage in
employment in the United States and provide the
alien with an “employment authorized”
endorsement or other appropriate work permit.
(2) Duration of work authorization
Work authorization provided under this section
shall be effective throughout the period the alien is in
temporary protected status under this section.
(3) Notice
(A) Upon the granting of temporary protected
status under this section, the Attorney General
shall provide the alien with information concerning
such status under this section.
(B) If, at the time of initiation of a removal

73a
proceeding against an alien, the foreign state (of
which the alien is a national) is designated under
subsection (b) of this section, the Attorney General
shall promptly notify the alien of the temporary
protected status that may be available under this
section.
(C) If, at the time of designation of a foreign
state under subsection (b) of this section, an alien
(who is a national of such state) is in a removal
proceeding under this subchapter, the Attorney
General shall promptly notify the alien of the
temporary protected status that may be available
under this section.
(D) Notices under this paragraph shall be
provided in a form and language that the alien can
understand.
(4) Temporary treatment for eligible aliens
(A) In the case of an alien who can establish a
prima facie case of eligibility for benefits under
paragraph (1), but for the fact that the period of
registration under subsection (c)(l)(A)(iv) of this
section has not , begun, until the alien has had a
reasonable opportunity to register during the first
30 days of such period, the Attorney General shall
provide for the benefits of paragraph (1).
(B) In the case of an alien who establishes a
prima facie case of eligibility for benefits under
paragraph (1), until a final determination with
respect to the alien’s eligibility for such benefits
under paragraph (1) has been made, the alien shall
be provided such benefits.

a

74a
(5) Clarification
Nothing in this section shall be construed as
authorizing the Attorney General to deny temporary
protected status to an alien based on the alien’s
immigration status or to require any alien, as a
condition of being granted such status, either to
relinquish nonimmigrant or other status the alien may
have or to execute any waiver of other rights under
this chapter. The granting of temporary protected
status under this section shall not be considered to be
inconsistent with the granting of nonimmigrant status
under this chapter.
(b) Designations
(1) In general
The Attorney General, after consultation with
appropriate agencies of the Government, may
designate any foreign state (or any part of such foreign
state) under this subsection only if—
(A) the Attorney General finds that there is an
ongoing armed conflict within the state and, due to
such conflict, requiring the return of aliens who are
nationals of that state to that state (or to the part
of the state) would pose a serious threat to their
personal safety;
(B) the Attorney General finds that—
(i) there has been an earthquake, flood,
drought, epidemic, or other environmental
disaster in the state resulting in a substantial,
but temporary, disruption of living conditions in
the area affected,

75a
(ii) the foreign state is unable, temporarily, to
handle adequately the return to the state of
aliens who are nationals of the state, and
(iii) the foreign state officially has requested
designation under this subparagraph; or
(C) the Attorney General finds that there exist
extraordinary and temporary conditions in the
foreign state that prevent aliens who are nationals
of the state from returning to the state in safety,
unless the Attorney General finds that permitting
the aliens to remain temporarily in the United
States is contrary to the national interest of the
United States.
A designation of a foreign state (or part of such foreign
state) under this paragraph shall not become effective
unless notice of the designation (including a statement of
the findings under this paragraph and the effective date of
the designation) is published in the Federal Register. In
such notice, the Attorney General shall also state an
estimate of the number of nationals of the foreign state
designated who are (or within the effective period of the
designation are likely to become) eligible for temporary
protected status under this section and their immigration
status in the United States.
(2) Effective period of designation for foreign
states
The designation of a foreign state (or part of such
foreign state) under paragraph (1) shall—
(A) take effect upon the date of publication of the
designation under such paragraph, or such later
date as the Attorney General may specify in the

76a
notice published under such paragraph, and
(B) shall remain in effect until the effective date
of the termination of the designation under
paragraph (3)(B).
For purposes of this section, the initial period of
designation of a foreign state (or part thereof) under
paragraph (1) is the period, specified by the Attorney
General, of not less than 6 months and not more than 18
months.
(3) Periodic review, terminations, and extensions
of designations
(A) Periodic review
At least 60 days before end of the initial period
of designation, and any extended period of
designation, of a foreign state (or part thereof)
under this section the Attorney General, after
consultation with appropriate agencies of the
Government, shall review the conditions in the
foreign state (or part of such foreign state) for
which a designation is in effect under this
subsection and shall determine whether the
conditions for such designation under this
subsection continue to be met. The Attorney
General shall provide on a timely basis for the
publication of notice of each such determination
(including the basis for the determination, and, in
the case of an affirmative determination, the period
of extension of designation under subparagraph
(C)) in the Federal Register.
(B) Termination of designation
If the Attorney General determines under

77a
subparagraph (A) that a foreign state (or part of
such foreign state) no longer continues to meet the
conditions for designation under paragraph (1), the
Attorney General shall terminate the designation
by publishing notice in the Federal Register of the
determination under this subparagraph (including
the basis for the determination). Such termination
is effective in accordance with subsection (d)(3) of
this section, but shall not be effective earlier than
60 days after the date the notice is published or, if
later, the expiration of the most recent previous
extension under subparagraph (C).
(C) Extension of designation
If the Attorney General does not determine
under subparagraph (A) that a foreign state (or
part of such foreign state) no longer meets the
conditions for designation under paragraph (1), the
period of designation of the foreign state is
extended for an additional period of 6 months (or,
in the discretion of the Attorney General, a period
of 12 or 18 months).
(4) Information concerning protected status at
time of designations
At the time of a designation of a foreign state under
this subsection, the Attorney General shall make
available information respecting the temporary
protected status made available to aliens who are
nationals of such designated foreign state.
(5) Review
(A) Designations
There is no judicial review of any determination

78a
of the Attorney General with respect to the
designation, or termination or extension of a
designation, of a foreign state under this
subsection.
(B) Application to individuals
The Attorney General shall establish an
administrative procedure for the review of the
denial of benefits to aliens under this subsection.
Such procedure shall not prevent an alien from
asserting protection under this section in removal
proceedings if the alien demonstrates that the alien
is a national of a state designated under paragraph
(1).
(c) Aliens eligible for temporary protected status
(1) In general
(A) Nationals of designated foreign states
Subject to paragraph (3), an alien, who is a
national of a state designated under subsection
(b)(1) of this section (or in the case of an alien
having no nationality, is a person who last
habitually resided in such designated state), meets
the requirements of this paragraph only if—
(i) the alien has been continuously physically
present in the United States since the effective
date of the most recent designation of that
state;
(ii) the alien has continuously resided in the
United States since such date as the Attorney
General may designate;
(iii) the alien is admissible as an immigrant,

79a
except as otherwise provided under paragraph
(2)(A), and is not ineligible for temporary
protected status under paragraph (2)(B); and
(iv) to the extent and in a manner which the
Attorney General establishes, the alien
registers for the temporary protected status
under this section during a registration period
of not less than 180 days.
(B) Registration fee
The Attorney General may require payment of a
reasonable fee as a condition of registering an alien
under subparagraph (A)(iv) (including providing an
alien -with an “employment authorized”
endorsement or other appropriate work permit
under this section). The amount of any such fee
shall not exceed $50. In the case of aliens
registered pursuant to a designation under this
section made after July 17, 1991, the Attorney
General may impose a separate, additional fee for
providing an alien with documentation of work
authorization. Notwithstanding section 3302 of
title 31, all fees collected under this subparagraph
shall be credited to the appropriation to be used in
carrying out this section.
(2) Eligibility standards
(A) Waiver
of
inadmissibility

certain

grounds

for

In the determination of an alien’s admissibility
for purposes of subparagraph (A)(iii) of paragraph

(D(i) the provisions of paragraphs (5) and (7)(A)

80a
of section 1182(a) of this title shall not apply;
(ii) except as provided in clause (iii), the
Attorney General may waive any other
provision of section 1182(a) of this title in the
case of individual aliens for humanitarian
purposes, to assure family unity, or when it is
otherwise in the public interest; but
(iii) the Attorney General may not waive—
(I) paragraphs (2)(A) and (2)(B) (relating to
criminals) of such section,
(II) paragraph (2)(C) of such section
(relating to drug offenses), except for so
much of such paragraph as relates to a
single offense of simple possession of 30
grams or less of marijuana, or
(III) paragraphs (3)(A), (3)(B), (3)(C), and
(3)(E) of such section (relating to national
security and participation in the Nazi
persecutions or those who have engaged in
genocide).
(B) Aliens ineligible
An alien shall not be eligible for temporary
protected status under this section if the Attorney
General finds that—
(i) the alien has been convicted of any felony
or 2 or more misdemeanors committed in the
United States, or
(ii) the alien is described
1158(b)(2)(A) of this title.

in

section

81a
(3) Withdrawal of temporary protected status
The Attorney General shall withdraw temporary
protected status granted to an alien under this section
if—
(A) the Attorney General finds that the alien was
not in fact eligible for such status under this
section,
(B) except as provided in paragraph (4) and
permitted in subsection (f)(3), the alien has not
remained continuously physically present in the
United States from the date the alien first was
granted temporary protected status under this
section, or
(C) the alien fails, without good cause, to register
with the Attorney General annually, at the end of
each 12-month period after the granting of such
status, in a form and manner specified by the
Attorney General.
(4) Treatment of brief, casual, and innocent
departures and certain other absences
(A) For purposes of paragraphs (l)(A)(i) and
(3)(B), an alien shall not be considered to have
failed to maintain continuous physical presence in
the United States by virtue of brief, casual, and
innocent absences from the United States, without
regard to whether such absences were authorized
by the Attorney General.
(B) For purposes of paragraph (l)(A)(ii), an alien
shall not be considered to have failed to maintain
continuous residence in the United States by
reason of a brief, casual, and innocent absence

i

82a
described in subparagraph (A) or due merely to a
brief temporary trip abroad required by
emergency or extenuating circumstances outside
the control of the alien.
(5) Construction
Nothing in this section shall be construed as
authorizing an alien to apply for admission to, or to be
admitted to, the United States in order to apply for
temporary protected status under this section.
(6) Confidentiality of information
The Attorney General shall establish procedures to
protect the confidentiality of information provided by
aliens under this section.
(d) Documentation
(1) Initial issuance
Upon the granting of temporary protected status to
an alien under this section, the Attorney General shall
provide for the issuance of such temporary
documentation and authorization as may be necessary
to carry out the purposes of this section.
(2) Period of validity
Subject to paragraph (3), such documentation shall
be valid during the initial period of designation of the
foreign state (or part thereof) involved and any
extension of such period. The Attorney General may
stagger the periods of validity of the documentation
and authorization in order to provide for an orderly
renewal of such documentation and authorization and
for an orderly transition (under paragraph (3)) upon
the termination of a designation of a foreign state (or

83a
any part of such foreign state).
(3) Effective date of terminations
If the Attorney General terminates the designation
of a foreign state (or part of such foreign state) under
subsection (b)(3)(B) of this section, such termination
shall only apply to documentation and authorization
issued or renewed after the effective date of the
publication of notice of the determination under that
subsection (or, at the Attorney General’s option, after
such period after the effective date of the
determination as the Attorney General determines to
be appropriate in order to provide for an orderly
transition).
(4) Detention of alien
An alien provided temporary protected status under
this section shall not be detained by the Attorney
General on the basis of the alien’s immigration status
in the United States.
(e) Relation of period of temporary protected status to
cancellation of removal
With respect to an alien granted temporary protected
status under this section, the period of such status shall
not be counted as a period of physical presence in the
United States for purposes of section 1229b(a) of this title,
unless the Attorney General determines that extreme
hardship exists. Such period shall not cause a break in the
continuity of residence of the period before and after such
period for purposes of such section.
(f) Benefits and status during period of temporary
protected status
During a period in which an alien is granted temporary

84a
protected status under this section—
(1) the alien shall not be considered to be
permanently residing in the United States under color
of law;
(2) the alien may be deemed ineligible for public
assistance by a State (as defined in section 1101(a)(36)
of this title) or any political subdivision thereof which
furnishes such assistance;
(3) the alien may travel abroad with the prior
consent of the Attorney General; and
(4) for purposes of adjustment of status under
section 1255 of this title and change of status under
section 1258 of this title, the alien shall be considered
as being in, and maintaining, lawful status as a
nonimmigrant.
(g) Exclusive remedy
Except as otherwise specifically provided, this section
shall constitute the exclusive authority of the Attorney
General under law to permit aliens who are or may become
otherwise deportable or have been paroled into the United
States to remain in the United States temporarily because
of their particular nationality or region of foreign state of
nationality.
(h) Limitation on consideration
legislation adjusting status

in

Senate

of

(1) In general
Except as provided in paragraph (2), it shall not be
in order in the Senate to consider any bill, resolution,
or amendment that—
(A) provides for adjustment to lawful temporary

85a
or permanent resident alien status for any alien
receiving temporary protected status under this
section, or
(B) has the effect of amending this subsection or
limiting the application of this subsection.
(2) Supermajority required
Paragraph (1) may be waived or suspended in the
Senate only by the affirmative vote of three-fifths of
the Members duly chosen and sworn. An affirmative
vote of three-fifths of the Members of the Senate duly
chosen and sworn shall be required in the Senate to
sustain an appeal of the ruling of the Chair on a point
of order raised under paragraph (1).
(3) Rules
Paragraphs (1) and (2) are enacted—
(A) as an exercise of the rulemaking power of the
Senate and as such they are deemed a part of the
rules of the Senate, but applicable only with respect
to the matters described in paragraph (1) and
supersede other rules of the Senate only to the
extent that such paragraphs are inconsistent
therewith; and
(B)with full recognition of the constitutional
right of the Senate to change such rules at any
time, in the same manner as in the case of any other
rule of the Senate.
(i) Annual report and review
(1) Annual report
Not later than March 1 of each year (beginning with
1992), the Attorney General, after consultation with

86a
the appropriate agencies of the Government, shall
submit a report to the Committees on the Judiciary of
the House of Representatives and of the Senate on the
operation of this section during the previous year.
Each report shall include—
(A) a listing of the foreign states or parts thereof
designated under this section,
(B) the number of nationals of each such state
who have been granted temporary protected status
under this section and their immigration status
before being granted such status, and
(C) an explanation of the reasons why foreign
states or parts thereof were designated under
subsection (b)(1) of this section and, with respect to
foreign states or parts thereof previously
designated, why the designation was terminated or
extended under subsection (b)(3) of this section.
(2) Committee report
No later than 180 days after the date of receipt of
such a report, the Committee on the Judiciary of each
House of Congress shall report to its respective House
such oversight findings and legislation as it deems
appropriate.

87a
APPENDIX H
8 U.S.C. § 1255. Adjustment of status of nonimmigrant
to that of person admitted for permanent residence
(a) Status as person admitted for permanent residence
on application and eligibility for immigrant visa
The status of an alien who was inspected and admitted
or paroled into the United States or the status of any other
alien having an approved petition for classification as a
VAWA self-petitioner may be adjusted by the Attorney
General, in his discretion and under such regulations as he
may prescribe, to that of an alien lawfully admitted for
permanent residence if (1) the alien makes an application
for such adjustment, (2) the alien is eligible to receive an
immigrant visa and is admissible to the United States for
permanent residence, and (3) an immigrant visa is
immediately available to him at the time his application is
filed.
(b) Record of lawful admission for permanent
residence; reduction of preference visas
Upon the approval of an application for adjustment
made under subsection (a) of this section, the Attorney
General shall record the alien’s lawful admission for
permanent residence as of the date the order of the
Attorney General approving the application for the
adjustment of status is made, and the Secretary of State
shall reduce by one the number of the preference visas
authorized to be issued under sections 1152 and 1153 of
this title within the class to which the alien is chargeable
for the fiscal year then current.
(c) Alien crewmen, aliens continuing or accepting
unauthorized employment, and aliens admitted in

88a
transit without visa
Other than an alien having an approved petition for
classification as a VAWA self-petitioner, subsection (a) of
this section shall not be applicable to (1) an alien crewman;
(2) subject to subsection (k) of this section, an alien (other
than an immediate relative as defined in section 1151(b) of
this title or a special immigrant described in section
1101(a)(27)(H), (I), (J), or (K) of this title) who hereafter
continues in or accepts unauthorized employment prior to
filing an application for adjustment of status or who is in
unlawful immigration status on the date of filing the
application for adjustment of status or who has failed
(other than through no fault of his own or for technical
reasons) to maintain continuously a lawful status since
entry into the United States; (3) any alien admitted in
transit without visa under section 1182(d)(4)(C) of this
title; (4) an alien (other than an immediate relative as
defined in section 1151(b) of this title) who was admitted
as a nonimmigrant visitor without a visa under section
1182(Z) of this title or section 1187 of this title; (5) an alien
who was admitted as a nonimmigrant described in section
1101(a)(15)(S) of this title,1 (6) an alien who is deportable
under section 1227(a)(4)(B) of this title; (7) any alien who
seeks adjustment of status to that of an immigrant under
section 1153(b) of this title and is not in a lawful
nonimmigrant status; or (8) any alien who was employed
while the alien was an unauthorized alien, as defined in
section 1324a(h)(3) of this title, or who has otherwise
violated the terms of a nonimmigrant visa.

So in original. The comma probably should be a semicolon.

89a
(d) Alien admitted for permanent residence on
conditional basis; fiancee or fiance of citizen
The Attorney General may not adjust, under subsection
(a) of this section, the status of an alien lawfully admitted
to the United States for permanent residence on a
conditional basis under section 1186a of this title. The
Attorney General may not adjust, under subsection (a) of
this section, the status of a nonimmigrant alien described
in section 1101(a)(15)(K) of this title except to that of an
alien lawfully admitted to the United States on a
conditional basis under section 1186a of this title as a
result of the marriage of the nonimmigrant (or, in the case
of a minor child, the parent) to the citizen who filed the
petition to accord that alien’s nonimmigrant status under
section 1101(a)(15)(K) of this title.
(e) Restriction on adjustment of status based on
marriages entered while in admissibility or
deportation proceedings; bona fide marriage
exception
(1) Except as provided in paragraph (3), an alien
who is seeking to receive an immigrant visa on the
basis of a marriage which was entered into during the
period described in paragraph (2) may not have the
alien’s status adjusted under subsection (a) of this
section.
(2) The period described in this paragraph is the
period during which administrative or judicial
proceedings are pending regarding the alien’s right to
be admitted or remain in the United States.
(3) Paragraph (1) and section 1154(g) of this title
shall not apply with respect to a marriage if the alien
establishes by clear and convincing evidence to the

90a
satisfaction of the Attorney General that the marriage
was entered into in good faith and in accordance with
the laws of the place where the marriage took place
and the marriage was not entered into for the purpose
of procuring the alien’s admission as an immigrant and
no fee or other consideration was given (other than a
fee or other consideration to an attorney for assistance
in preparation of a lawful petition) for the filing of a
petition under section 1154(a) of this title or subsection
(d) or (p)2 of section 1184 of this title with respect to
the alien spouse or alien son or daughter, In
accordance with regulations, there shall be only one
level of administrative appellate review for each alien
under the previous sentence.
(f) Limitation on adjustment of status
The Attorney General may not adjust, under subsection
(a) of this section, the status of an alien lawfully admitted
to the United States for permanent residence on a
conditional basis under section 1186b of this title.
(g) Special immigrants
In applying this section to a special immigrant
described in section 1101(a)(27)(K) of this title, such an
immigrant shall be deemed, for purposes of subsection (a)
of this section, to have been paroled into the United
States.
(h) Application with respect to special immigrants
In applying this section to a special immigrant
described in section 1101(a)(27)(J) of this title—
(1) such an immigrant shall be deemed, for purposes
2 See References in Text note below.

91a
of subsection (a) of this section, to have been paroled
into the United States; and
(2) in determining the alien’s admissibility as an
immigrant—
(A) paragraphs (4), (5)(A), (6)(A), (6)(C), (6)(D),
(7)(A), and (9)(B) of section 1182(a) of this title shall
not apply; and
(B) the Attorney General may waive other
paragraphs of section 1182(a) of this title (other
than paragraphs (2)(A), (2)(B), (2)(C) (except for so
much of such paragraph as related to a single
offense of simple possession of 30 grams or less of
marijuana), (3)(A), (3)(B), (3)(C), and (3)(E)) in the
case of individual aliens for humanitarian purposes,
family unity, or when it is otherwise in the public
interest.
The relationship between an alien and the alien’s natural
parents or prior adoptive parents shall not be considered
a factor in making a waiver under paragraph (2)(B).
Nothing in this subsection or section 1101(a)(27)(J) of this
title shall be construed as authorizing an alien to apply for
admission or be admitted to the United States in order to
obtain special immigrant status described in such section.
(i) Adjustment in status of certain aliens physically
present in United States
(1) Notwithstanding the provisions of subsections
(a) and (c) of this section, an alien physically present in
the United States—
(A) who—
(i) entered the
inspection; or

United

States

without

92a
(ii) is within one of the classes enumerated in
subsection (c) of this section;
(B) who is the beneficiary (including a spouse or
child of the principal alien, if eligible to receive a
visa under section 1153(d) of this title) of—
(i) a petition for classification under section
1154 of this title that was filed with the
Attorney General on or before April 30,2001; or
(ii) an application for a labor certification
under section 1182(a)(5)(A) of this title that was
filed pursuant to the regulations of the
Secretary of Labor on or before such date; and
(C) who, in the case of a beneficiary of a petition
for classification, or an application for labor
certification, described in subparagraph (B) that
was filed after January 14, 1998, is physically
present in the United States on December 21,2000;
may apply to the Attorney General for the adjustment
of his or her status to that of an alien lawfully admitted
for permanent residence. The Attorney General may
accept such application only if the alien remits with
such application a sum equalling $1,000 as of the date
of receipt of the application, but such sum shall not be
required from a child under the age of seventeen, or an
alien who is the spouse or unmarried child of an
individual who obtained temporary or permanent
resident status under section 1160 or 1255a of this title
or section 202 of the Immigration Reform and Control
Act of 1986 at any date, who—
(i) as of May 5,1988, was the unmarried child
or spouse of the individual who obtained

93a
temporary or permanent resident status under
section 1160 or 1255a of this title or section 202
of the Immigration Reform and Control Act of
1986;
(ii) entered the United States before May 5,
1988, resided in the United States on May 5,
1988, and is not a lawful permanent resident;
and
(iii) applied for benefits under section 301(a)
of the Immigration Act of 1990. The sum
specified herein shall be in addition to the fee
normally required for the processing of an
application under this section.
(2) Upon receipt of such an application and the sum
hereby required, the Attorney General may adjust the
status of the alien to that of an alien lawfully admitted
for permanent residence if—
(A) the alien is eligible to receive an immigrant
visa and is admissible to the United States for
permanent residence; and
(B) an immigrant visa is immediately available to
the alien at the time the application is filed.
(3)(A)The portion of each application fee (not to
exceed $200) that the Attorney General determines is
required to process an application under this section
and is remitted to the Attorney General pursuant to
paragraphs (1) and (2) of this subsection shall be
disposed of by the Attorney General as provided in
subsections (m), (n), and (o) of section 1356 of this title.
(B) Any remaining portion of such fees remitted
under such paragraphs shall be deposited by the

94a
Attorney
General
into
the
Breached
Bond/Detention Fund established under section
1356(r) of this title, except that in the case of fees
attributable to applications for a beneficiary with
respect to whom a petition for classification, or an
application for labor certification, described in
paragraph (1)(B) was filed after January 14,1998,
one-half of such remaining portion shall be
deposited by the Attorney General into the
Immigration
Examinations
Fee
Account
established under section 1356(m) of this title.
(j) Adjustment to permanent resident status
(1) If, in the opinion of the Attorney General—
(A) a nonimmigrant admitted into the United
States under section 1101(a)(15)(S)(i) of this title
has supplied information described in subclause (I)
of such section; and
(B) the provision of such information has
substantially contributed to the success of an
authorized criminal investigation or the
prosecution of an individual described in subclause
(III) of that section,
the Attorney General may adjust the status of the alien
(and the spouse, married and unmarried sons and
daughters, and parents of the alien if admitted under
that section) to that of an alien lawfully admitted for
permanent residence if the alien is not described in
section 1182(a)(3)(E) of this title.
(2) If, in the sole discretion of the Attorney General—
(A) a nonimmigrant admitted into the United
States under section 1101(a)(15)(S)(ii) of this title

95a
has supplied information described in subclause (I)
of such section, and
(B) the provision of such information has
substantially contributed to—
(i) the prevention or frustration of an act of
terrorism against a United States person or
United States property, or
(ii) the success of an authorized criminal
investigation of, or the prosecution of, an
individual involved in such an act of terrorism,
and
(C) the nonimmigrant has received a reward
under section 2708(a) of title 22,
the Attorney General may adjust the status of the alien
(and the spouse, married and unmarried sons and
daughters, and parents of the alien if admitted under
such section) to that of an alien lawfully admitted for
permanent residence if the alien is not described in
section 1182(a)(3)(E) of this title.
(3) Upon the approval of adjustment of status under
paragraph (1) or (2), the Attorney General shall record
the alien’s lawful admission for permanent residence
as of the date of such approval and the Secretary of
State shall reduce by one the number of visas
authorized to be issued under sections 1151(d) and
1153(b)(4) of this title for the fiscal year then current.
(k) Inapplicability of certain provisions for certain
employment-based immigrants
An alien who is eligible to receive an immigrant visa
under paragraph (1), (2), or (3) of section 1153(b) of this
title (or, in the case of an alien who is an immigrant

96a
described in section 1101(a)(27)(C) of this title, under
section 1153(b)(4) of this title) may adjust status pursuant
to subsection (a) of this section and notwithstanding
subsection (c)(2), (c)(7), and (c)(8) of this section, if—
(1) the alien, on the date of filing an application for
adjustment of status, is present in the United States
pursuant to a lawful admission;
(2) the alien, subsequent to such lawful admission
has not, for an aggregate period exceeding 180 days—
(A) failed to maintain, continuously, a lawful
status;
(B) engaged in unauthorized employment; or
(C) otherwise violated the terms and conditions
of the alien’s admission.
(1) Adjustment of status for victims of trafficking
(1) If, in the opinion of the Secretary of Homeland
Security, or in the case of subparagraph (C)(i), in the
opinion of the Secretary of Homeland Security, in
consultation with the Attorney General, as
appropriate3 a nonimmigrant admitted into the United
States under section 1101(a)(15)(T)(i) of this title—
(A) has been physically present in the United
States for a continuous period of at least 3 years
since the date of admission as a nonimmigrant
under section 1101(a)(15)(T)(i) of this title, or has
been physically present in the United States for a
continuous period during the investigation or
prosecution of acts of trafficking and that, in the
opinion of the Attorney General, the investigation
3 So in original. Probably should be followed by a comma.

97a
or prosecution is complete, whichever period of
time is less;
(B) subject to paragraph (6), has, throughout
such period, been a person of good moral character;
and
(C)(i) has, during such period, complied with any
reasonable request for assistance in the
investigation or prosecution of acts of trafficking;
(ii) the alien4 would suffer extreme hardship
involving unusual and severe harm upon
removal from the United States; or
(iii) was younger than 18 years of age at the
time of the victimization qualifying the alien for
relief under section 1101(a)(15)(T) of this title.5
the Secretary of Homeland Security may adjust the
status of the alien (and any person admitted under
section 1101(a)(15)(T)(ii) of this title as the spouse,
parent, sibling, or child of the alien) to that of an alien
lawfully admitted for permanent residence.
(2) Paragraph (1) shall not apply to an alien
admitted under section 1101(a)(15)(T) of this title who
is inadmissible to the United States by reason of a
ground that has not been waived under section 1182 of
this title, except that, if the Secretary of Homeland
Security considers it to be in the national interest to do
so, the Secretary of Homeland Security, in the
Attorney General’s6 discretion, may waive the
application of—
4 So in original. The words “the alien” probably should not appear.
5 So in original. The period probably should be a comma.
6 So in original. Probably should be “Secretary’s”.

98a
(A) paragraphs (1) and (4) of section 1182(a) of
this title; and
(B) any other provision of such section
(excluding paragraphs (3), (10)(C), and (10(E))7, if
the activities rendering the alien inadmissible
under the provision were caused by, or were
incident to, the victimization described in section
1101(a)(15)(T)(i)(I) of this title.
(3) An alien shall be considered to have failed to
maintain continuous physical presence in the United
States under paragraph (1)(A) if the alien has departed
from the United States for any period in excess of 90
days or for any periods in the aggregate exceeding 180
days, unless—
(A) the absence was necessary to assist in the
investigation or prosecution described in
paragraph (1)(A); or
(B) an official involved in the investigation or
prosecution certifies that the absence was
otherwise justified.
(4)(A) The total number of aliens whose status may
be adjusted under paragraph (1) during any fiscal year
may not exceed 5,000.
(B)The numerical limitation of subparagraph
(A) shall only apply to principal aliens and not to
the spouses, sons, daughters, siblings, or parents of
such aliens.
(5) Upon the approval of adjustment of status under
paragraph (1), the Secretary of Homeland Security
7 So in original. Probably should be “(10)(E)),”.

99a
shall record the alien’s lawful admission for permanent
residence as of the date of such approval.
(6) For purposes of paragraph (1)(B), the Secretary
of Homeland Security may waive consideration of a
disqualification from good moral character with
respect to an alien if the disqualification was caused by,
or incident to, the trafficking described in section
1101(a)(15)(T)(i)(I) of this title.
(7) The Secretary of Homeland Security shall
permit aliens to apply for a waiver of any fees
associated with filing an application for relief through
final adjudication of the adjustment of status for a
VAWA self-petitioner and for relief under sections
1101(a)(15)(T), 1101(a)(15)(U), 1105a, 1229b(b)(2), and
1254a(a)(3) of this title (as in effect on March 31,1997).
(m) Adjustment of status for victims of crimes against
women
(1) The Secretary of Homeland Security may adjust
the status of an alien admitted into the United States
(or otherwise provided nonimmigrant status) under
section 1101(a)(15)(U) of this title to that of an alien
lawfully admitted for permanent residence if the alien
is not described in section 1182(a)(3)(E) of this title,
unless the Secretary determines based on affirmative
evidence that the alien unreasonably refused to
provide assistance in a criminal investigation or
prosecution, if—
(A) the alien has been physically present in the
United States for a continuous period of at least 3
years since the date of admission as a
nonimmigrant under clause (i) or (ii) of section
1101(a)(15)(U) of this title; and

100a
(B) in the opinion of the Secretary of Homeland
Security, the alien’s continued presence in the .
United States is justified on humanitarian grounds,
to ensure family unity, or is otherwise in the public
interest.
(2) An alien shall be considered to have failed to
maintain continuous physical presence in the United
States under paragraph (1)(A) if the alien has departed
from the United States for any period in excess of 90
days or for any periods in the aggregate exceeding 180
days unless the absence is in order to assist in the
investigation or prosecution or unless an official
involved in the investigation or prosecution certifies
that the absence was otherwise justified.
(3) Upon approval of adjustment of status under
paragraph (1) of an alien described in section
1101(a)(15)(U)(i) of this title the Secretary of
Homeland Security may adjust the status of or issue
an immigrant visa to a spouse, a child, or, in the case of
an alien child, a parent who did not receive a
nonimmigrant visa under section 1101(a)(15)(U)(ii) of
this title if the Secretary considers the grant of such
status or visa necessary to avoid extreme hardship.
(4) Upon the approval of adjustment of status under
paragraph (1) or (3), the Secretary of Homeland
Security shall record the alien’s lawful admission for
permanent residence as of the date of such approval.
(5)(A) The Secretary of Homeland Security shall
consult with the Attorney General, as appropriate, in
making a determination under paragraph (1) whether
affirmative evidence demonstrates that the alien
unreasonably refused to provide assistance to a

101a
Federal law enforcement official, Federal prosecutor,
Federal judge, or other Federal authority
investigating or prosecuting criminal activity
described in section 1101 (a)( 15)(U)(iii) of this title.
(B) Nothing in paragraph (1)(B) may be
construed to prevent the Secretary from consulting
with the Attorney General in making a
determination whether affirmative evidence
demonstrates that the alien unreasonably refused
to provide assistance to a State or local law
enforcement official, State or local prosecutor,
State or local judge, or other State or local
authority investigating or prosecuting criminal
activity described in section 1101(a)(15)(U)(iii) of
this title.

102a
APPENDIX I
8 U.S.C. § 1258.
classification

Change

of

nonimmigrant

(a) The Secretary of Homeland Security may, under
such conditions as he may prescribe, authorize a change
from any nonimmigrant classification to any other
nonimmigrant classification in the case of any alien
lawfully admitted to the United States as a nonimmigrant
who is continuing to maintain that status and who is not
inadmissible under section 1182(a)(9)(B)(i) of this title (or
whose inadmissibility under such section is waived
under section 1182(a)(9)(B)(v) of this title), except (subject
to subsection (b)) in the case of~
(1)an alien classified as a nonimmigrant under
subparagraph (C), (D), (K), or (S) of section 1101(a)(15)
of this title,
(2) an alien classified as a nonimmigrant under
subparagraph (J) of section 1101(a)(15) of this title who
came to the United States or acquired such
classification in order to receive graduate medical
education or training,
(3) an alien (other than an alien described in
paragraph (2)) classified as a nonimmigrant under
subparagraph (J) of section 1101(a)(15) of this title who
is subject to the two-year foreign residence
requirement of section 1182(e) of this title and has not
received a waiver thereof, unless such alien applies to
have the alien’s classification changed from
classification under subparagraph (J) of section
1101(a)(15) of this title to a classification under
subparagraph (A) or (G) of such section, and

103a
(4) an alien admitted as a nonimmigrant visitor
without a visa under section 1182(Z) of this title or
section 1187 of this title.
(b) The exceptions specified in paragraphs (1) through
(4) of subsection (a) shall not apply to a change of
nonimmigrant classification to that of a nonimmigrant
under subparagraph (T) or (U) of section 1101(a)(15) of
this title.

